                                                                Issue Date
                                                                             July 8, 2011
                                                                Audit Report Number
                                                                         2011-AT-1011




TO:        Jenise T. Hight, Associate Deputy Assistant Secretary for Single Family Housing,
           HU

           Dane M. Narode, Associate General Counsel for Program Enforcement, CACC

           //signed//
FROM:      James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT:   Prospect Mortgage, LLC, Sherman Oaks, CA, Did Not Always Comply With
            Federal Housing Administration Underwriting and Quality Control
            Requirements

                                  HIGHLIGHTS

 What We Audited and Why


           We audited Federal Housing Administration (FHA)-insured loans underwritten by
           Prospect Mortgage, LLC (Prospect), within Region IV of the U. S. Department of
           Housing and Urban Development (HUD) Office of Inspector General (OIG).
           Region IV is located within the jurisdiction of HUD’s Atlanta Homeownership
           Center. We selected Prospect for review because of its high underwriter default
           activity in Region IV. Prospect is an FHA-approved direct endorsement lender,
           located in Sherman Oaks, CA. The audit was a part of our annual audit plan.

           Our objective was to determine whether Prospect complied with HUD’s
           requirements for (1) origination and underwriting relative to cash assets, income,
           and creditworthiness; (2) quality controls; and (3) branch office operations.




 What We Found
         Prospect did not always follow HUD’s underwriting and quality control
         requirements for FHA-insured loans. Specifically, Prospect did not

                Properly underwrite 25 of the 33 loans reviewed. The improperly
                underwritten loans contained deficiencies that affected the insurability of
                the loans, including improper documentation or assessment of borrowers’
                credit, income, debts, cash assets, and compensating factors. As a result,
                HUD insured 25 loans that placed the FHA insurance fund at risk for
                $550,257 in questioned costs and nearly $1.7 million in funds to be put to
                better use. We attribute the violations to a failure by Prospect and its
                managers to ensure that it implemented and complied with HUD’s
                underwriting and quality control requirements for loans primarily
                originated at two branch offices which had high default rates.

                Properly implement quality controls over its underwriting process for a
                specific group of defaulted loans approved by high default rate
                underwriters at two of its branch offices. The improper quality controls
                placed the FHA insurance fund at risk for losses on additional defaulted
                loans with mortgages of more than $26.1 million that were underwritten
                by two of Prospect’s high-default-rate branch offices. The two branches
                employed most of the high-default-rate underwriters who were the focus
                of the review. We attribute the quality control deficiencies to a failure by
                Prospect management to ensure that it implemented and documented
                quality control practices that complied with HUD requirements.

What We Recommend


         We recommend that the Associate Deputy Assistant Secretary for Single Family
         Housing take appropriate administrative action against Prospect based on the
         information contained in this report. This action should, at a minimum, require
         Prospect to reimburse or hold HUD harmless against any losses for the 25
         improperly underwritten loans in finding 1 that involve $550,257 in questioned
         costs and $1,694,217 in funds to be put to better use and for the improper
         management of its quality control function. The quality control deficiencies have
         placed the FHA insurance fund at a higher risk for losses on additional defaulted
         loans with mortgages totaling more than $26.1 million that were underwritten by
         two high-default-rate branch offices. Therefore, we recommend that HUD review
         Prospect’s underwriting for any of the defaulted loans included in the $26.1
         million which have already gone to claim or on which a claim is filed within 5
         years of the loan endorsement dates. If HUD determines that the claim was filed
         for loans that did not meet requirements, Prospect should be required to reimburse
         HUD for the claim, the loss on the loans, or to indemnify HUD from losses.



                                          2
           We also recommend that HUD’s Associate General Counsel for Program
           Enforcement pursue civil and or administrative action against Prospect and or
           certain of its underwriters for incorrectly certifying to the integrity of the data used
           to underwrite 25 loans that placed the FHA insurance fund at risk for $550,257 in
           questioned cost, potential losses of $1,694,217 and, for inadequate quality controls
           over the underwriting process.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We discussed the findings with Prospect officials during the audit and provided
           the draft report to Prospect on May 5, 2011. We discussed the report with
           Prospect officials at the exit conference held on May 19, 2011, and Prospect
           provided written comments on May 20, 2011. The comments generally disagreed
           with our findings and case studies. The complete text of Prospect’s response
           (minus exhibits), along with our evaluation of that response, can be found in
           appendix B of this report.




                                              3
                           TABLE OF CONTENTS


Background and Objective                                                          5

Results of Audit
Finding 1: Prospect Did Not Fully Comply With HUD’s Underwriting Requirements     6
Finding 2: Prospect Did Not Effectively Implement Certain Components of Its      18
           Quality Control Processes

Scope and Methodology                                                            26


Internal Controls                                                                28


Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use             30
   B. Auditee Comments and OIG’s Evaluation                                      31
   C. Loan Underwriting Deficiency Charts                                        69
   D. Inadequate Assessment of Compensating Factors and Collection Accounts      71
   E. Case Studies of Improperly Underwritten Loans                              74
   F. Schedule of Allowed Compensating Factors                                  131
   G. Loans Approved By Underwriters With High Default Rates Which Were Not     132
      Reviewed During The Audit




                                           4
                      BACKGROUND AND OBJECTIVE

Prospect Mortgage, LLC (Prospect), is a Federal Housing Administration (FHA)-approved
nonsupervised direct endorsement lender which operates from its home office located in
Sherman Oaks, CA. Prospect was originally approved to originate FHA loans under the name of
Metrocities Mortgage, LLC, on July 6, 1999. Metrocities Mortgage, LLC, changed its name to
Prospect Mortgage, LLC, on February 23, 2009. At the time of our audit, Prospect had 264
active branches and 95 terminated branches and operated in the Atlanta, Denver, Philadelphia,
and Santa Ana Home Ownership Center jurisdictions. During the period covered by the review,
December 1, 2007, through December 31, 2009, Prospect had a high 12.29 percent default rate
for the Atlanta Homeownership Center jurisdiction which included the states of Alabama,
Florida, Georgia, Illinois, Indiana, Kentucky, Mississippi, North Carolina, South Carolina,
Tennessee, and the territories of Puerto Rico and the United States Virgin Islands. We limited
our review to Prospect’s high default activity in HUD OIG Region IV which is located within the
area included in the Atlanta Homeownership Center. Prospect’s default rates for the Santa Ana,
Denver, and Philadelphia Homeownership Centers were 2.7 percent, 3.18 percent, and 5.30
percent, respectively.

The audit primarily focused on manually underwritten loans within HUD OIG Region IV by
high default underwriters who underwrote loans for two Prospect branch offices located in the
states of Florida and North Carolina which also had high default rates. HUD OIG Region IV
includes the states of: Alabama, Florida, Georgia, Kentucky, Mississippi, North Carolina, South
Carolina, Tennessee and the territories of Puerto Rico and the United States Virgin Islands. We
determined that Prospect employed nine underwriters, who underwrote 211 defaulted loans in
HUD OIG Region IV with default rates that ranged from 9 to 54 percent. More than 76 percent
of Prospect’s defaults in HUD OIG Region IV were originated at the two branches located in
Florida and North Carolina. During the period of our review, the Florida branch had a default
rate of 21.49 percent, and the North Carolina branch had a default rate of 11.70 percent.

Our objective was to determine whether Prospect complied with HUD’s requirements for (1)
origination and underwriting relative to cash assets, income, and creditworthiness; (2) quality
controls; and (3) branch office operations.




                                                 5
                                     RESULTS OF AUDIT

Finding 1: Prospect Did Not Fully Comply with HUD’s Underwriting
Requirements

Prospect did not fully comply with HUD’s underwriting requirements. Specifically, it violated
underwriting requirements for 25 of 33 FHA-insured loans that exposed HUD’s insurance fund
to actual and potential for losses of more than $2.2 million for loans reviewed during the audit.
We attribute the violations to a failure by Prospect and its managers to ensure that it
implemented and complied with HUD’s underwriting and quality control requirements for loans
primarily originated by two high default rate branches that employed underwriters who had high
default rates (finding 2). The violations detected during the audit affected the insurability of the
loans and we questioned more than $2.2 million for 25 loans, listed in appendices C and D,
which did not meet requirements. The $2.2 million includes 5 claim terminated loans with actual
losses that totaled more than $344,000 to HUD’s insurance fund and 20 loans with potential
losses that could total to more than $1.9 million. The prevalence of significant underwriting
violations in the sample indicates that HUD may also be exposed to a high risk for losses on
other defaulted loans underwritten by the high-default-rate underwriters at the two branches for
loans that we did not review.



    Inappropriate Loan Approvals

                 Prospect inappropriately approved loans that involved repetitive and significant
                 underwriting deficiencies for 20, or 87 percent, of the 231 loans reviewed. The
                 deficiencies for each loan are summarized in appendix C followed by a detailed
                 discussion in appendix E.


                        Deficiency type                                         Totals2
                        Questionable or undocumented compensating factors         14
                        Credit not properly assessed                              15
                        Income not properly assessed                               9
                        Debts not properly assessed                                6
                        Inadequate assessment of cash assets                      11
                        Gift funds not properly assessed                          15
                        Excessive seller contributions                             1
                        Other                                                      6

                 The violations, listed in appendix C, include 5 loans on which HUD paid claims
                 and resold them at losses that totaled more than $344,000, and 20 loans where we

1
 We conducted a limited scope review of 10 additional loans discussed later in the finding. (appendix D).
2
 The number of deficiencies exceed the number of loans reviewed because, as shown in appendix C, a single loan
may involve deficiencies in multiple categories.

                                                       6
                 estimate potential losses could total more than $1.9 million. The 20 loans include
                 4 loans where Prospect over-insured the mortgages by more than $3,200.

                 HUD Handbook 4155.1, REV-5, Mortgage Credit Analysis for Mortgage
                 Insurance on One-to Four-Unit Mortgage Loans, provides requirements that
                 lenders must follow when underwriting FHA loans and evaluating, among other
                 requirements, borrower assets, income, and creditworthiness. The lender’s
                 decision to approve a loan must be documented and supported. The following
                 section discusses some of the more significant violations, which are detailed in
                 the case narratives presented in appendix E.

    Questionable or Undocumented
    Compensating Factors


                 Prospect consistently approved loans that exceeded HUD’s 43 percent debt-to-
                 income ratio benchmark without providing valid and supported compensating
                 factors. The audit sample (23 loans) included 20 loans that exceeded HUD’s
                 debt-to-income ratio benchmark, which required the documentation of
                 compensating factors. In 14 of the cases (70 percent), Prospect either did not
                 provide compensating factors or the factors provided were not valid or were not
                 properly supported.


                                                                                Number of
                        Description                                             instances3
                        Compensating factor(s) not provided                          2
                        Invalid compensating factors provided                       14
                        Valid but unsupported compensating factor(s)                14
                        Total                                                       30

                 The absence of legitimate compensating factors was significant because the 14
                 loans had debt-to-income ratios that ranged from 46.2 to 57.2 percent. The loans
                 were not eligible for approval without valid and supported compensating factors.

                 For example, the 14 invalid compensating factors included but were not limited to
                 the following type claims:




3
  The number of compensating factors that we did not accept exceeds the number of loans reviewed because a single
loan may involve multiple compensating factors that were not valid or that were not properly supported.

                                                        7
             Description of invalid compensating factors               Number of cases
             Borrower is a minimal debt user                                 4
             Borrower’s spouse* receives additional income                   2
             Job stability                                                   2
             Borrower has 2 months in reserves                               1
             Borrower has good credit                                        1
             Tax benefit of home ownership                                   1
             Total                                                          11
             *The spouse referred to was not a party to the loan.

            Prospect did not agree with our assessment that the above compensating factors
            were not valid. For example, we identified two instances of invalid compensating
            factors for spouses who were not a party to the loans. Prospect stated that income
            earned by a spouse who was not a party to the loan could be used as a
            compensating factor based on underwriting criteria for homes purchased as a
            result of a relocation (Handbook 4155.1, paragraph 2-13). The cited cases did not
            involve relocations. We considered the compensating factors to be invalid
            because the spouses’ credit was not assessed, and there was no assurance that
            their income would be available to assist with paying the mortgage.

            Mortgagee Letter 2005-16 allows a back ratio of 43 percent for manually
            underwritten mortgages, but it provides that if the ratio is exceeded, the lender
            must describe the compensating factors used to justify mortgage approval. HUD
            Handbook 4155.1, REV-5, paragraph 2-13, provides compensating factors that
            may be used to justify approval of mortgage loans with ratios that exceed the
            benchmark guidelines. A compensating factor used to justify mortgage approval
            must be supported by documentation. Appendix F provides a list of the
            compensating factors cited in HUD requirements that may be used to justify
            approval of mortgage loans with ratios that exceed HUD’s benchmark guidelines.

            Prospect generally disagreed with our conclusions. It stated that the audit used
            inappropriate statistics to support assertions that it approved loans with debt-to-
            income ratios above benchmark guidelines without adequate compensating
            factors. We assessed Prospect’s response to our tentative conclusions and made
            deletions and/or revisions when warranted. The statistics cited in the above table
            are an accurate summary of the invalid and unsupported compensating factors
            presented in the case narratives (appendix E).

Credit Not Properly Assessed

            Prospect approved 15 of the 23 loans reviewed (65 percent) without thoroughly
            assessing or documenting whether the borrowers met HUD’s credit requirements.
            Each loan involved borrowers whose credit reports showed collections, charge-
            offs, and/or bank statements which showed recent fees for returned items.

                    Unpaid collection accounts – The sample included 13 loans for which the
                    credit reports showed that the borrowers and/or coborrowers had unpaid

                                                   8
       collection accounts that ranged from $892 to more than $19,000. Prospect
       did not document compensating factors to justify why it approved the
       loans despite the derogatory credit indicated by the collection accounts.

                        Unpaid collection and charge off accounts
                    Account dollar range             Number of cases
                        $0-$1,000                          1
                      $1,001- $5,000                       5
                      $5,001-$10,000                       3
                     $10,001-$15,000                       2
                     $15,001-$20,000                       2
                           Total                          13
       For example, Prospect approved loan number 381-8867369, although the
       credit report showed that the borrower and the coborrower owed more
       than $19,200 for 58 collection accounts. A majority of the collections
       were for medical bills that totaled more than $15,000. Prospect’s quality
       control review also reported that the borrowers had a significant amount of
       derogatory credit.
       Returned items – Prospect approved two loans without documenting what
       consideration it gave to returned items documented in the loan files. The
       returned items included two for loan 105-3720079, and 5 for loan 105-
       4101563.

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit
performance serves as the most useful guide in determining a borrower’s attitude
toward credit obligations and predicting a borrower’s future actions. If the credit
history, despite adequate income to support obligations, reflects continuous slow
payments, judgments, and delinquent accounts, strong compensating factors will
be necessary to approve the loan. When delinquent accounts are revealed, the
lender must document its analysis as to whether the late payments were based on
a disregard for financial obligations, an inability to manage debt, or factors
beyond the control of the borrower.

Prospect generally disagreed with our conclusions and stated that the audit was
attempting to hold it accountable for the auditor’s opinion of how credit
requirements should be followed rather than the clear language of HUD’s
guidelines. Prospect stated that periods of financial difficulty in the past do not
necessarily make the risk unacceptable. We assessed Prospect’s response to our
tentative conclusions and made deletions and clarifications when warranted. As
presented in the case narratives, appendix E, Prospect approved loans that
involved credit problems without documenting compensating factors and its
assessment to determine why the borrowers had not honored their debt
obligations.




                                   9
Income Not Properly Assessed

           Prospect did not accurately assess the income for 9 of the 23 borrowers (39
           percent) included in the sample. The debt-to-income ratios for eight of the nine
           borrowers exceeded HUD’s 43 percent benchmark and are among the loans,
           discussed above, for which Prospect did not provide valid and supported
           compensating factors. For the 9 loans, we identified 17 violations related to
           improper assessment of income.
                                                                              Number of
            Type violations                                                   instances
            Inaccurate or unsupported income calculations                         3
            Employment not properly verified                                      5
            Overtime & bonus income allowed when earned less than 24 months       3
            Gaps in employment history not properly assessed or explained         1
            Stability of income not properly assessed                             3
            Overtime income not properly verified                                 2
            Total                                                                17

           For example, in case number 381-8673508, Prospect overstated the borrower’s
           overtime pay by more than $435 per month. The overstatement occurred because
           Prospect calculated the amount using a 16-month average versus the required 24-
           month average. Adjustment for the overstatement increased the debt-to-income
           ratio from 57 to more than 64 percent. The verification of employment showed
           that the likelihood of continued employment was good but the likelihood of
           continued overtime pay was “unknown.”

           HUD Handbook 4155.1, REV-5, paragraph 2-7(A), states that overtime income
           may be used to qualify if the borrower has received such income for the past 2
           years and it is likely to continue. The lender must develop an average of overtime
           income for the past 2 years, and the employment verification must not state that
           such income is unlikely to continue. Paragraph 2-7 provides that the income of
           each borrower to be obligated for the mortgage debt must be analyzed to
           determine whether it can reasonably be expected to continue through at least the
           first 3 years of the mortgage loan.

           Prospect generally disagreed with our conclusions. For instance, it stated that the
           audit was trying to use artificially inflated statistics that had no factual basis and
           that the audit declined to accept Prospect’s rebuttal to the majority of the issues.
           We assessed Prospect’s response relative to our tentative conclusions and made
           deletions and/or revisions in instances in which they were warranted. The
           statistics cited in the above table are an accurate summary of the violations
           discussed in appendix E.




                                              10
 Debts Not Properly Assessed


              Prospect approved 6 of the 23 loans reviewed (26 percent) without adequately
              documenting that it included all of the required monthly payments in the
              borrower’s debt-to-income ratio calculations. As a result, it understated the ratios
              it used to approve the loans. These six loans included two instances in which
              Prospect inappropriately excluded debts with fewer than 10 months of payments
              remaining (case numbers 381-8674809 and 381-8594116).

              For example, in case number 381-8594116, Prospect understated the borrower’s
              monthly debts by $219. It omitted one debt and understated the monthly
              payments for two other debts. The omitted debt had a $191 monthly payment, but
              it had less than 10 months remaining on the loan. In view of the high 52.6 percent
              debt-to-income ratio, we believe that the debt would have affected the borrower’s
              ability to make mortgage payments during the months immediately after the loan
              closed. Prospect did not agree with this assessment. The two understated debts
              included one account in which Prospect used $23 less than the credit report
              showed and another account in which it used $5 less than the credit report
              showed. Adjustment for the understated debts increased the debt-to-income ratio
              from 52.6 to 58.4 percent.

              HUD Handbook 4155.1, REV 5, paragraph 2-11(A), provides that in computing
              the debt-to-income ratios, the lender must include the monthly housing expense
              and all additional recurring charges extending 10 months or more. Debts lasting
              less than 10 months must be counted if the amount of the debt affects the
              borrower’s ability to make the mortgage payment during the months immediately
              after loan closing.

              Prospect generally disagreed with our conclusions. For instance, it stated that for
              every loan in the audit sample in which debts had fewer than 10 payments
              remaining, the audit cited Prospect for failing to include the debts in its debt-to-
              income ratio calculations. We cited the violations because, as discussed in the
              case narratives (appendix E), our assessments showed that the debts affect the
              borrower’s ability to make the mortgage payment during the months immediately
              after the loans closed.

Inadequate Assessment of Cash Assets



              Prospect did not properly assess the cash assets for 11 of the 23 loans included in
              our sample (48 percent). The loans involved 20 violations.




                                               11
                                                                            Number of
            Deficiency type                                                  instances
            Inadequate verification borrower funds used to close the loan        4
            Minimum downpayment not made or understated                          6
            Improper assessment of premium pricing                               6
            Inaccurate tax figure in settlement statement                        1
            Large deposit not properly assessed                                  2
            Earnest money paid to inappropriate source                           1
            Total                                                               20

          For example, in case number 461-4115484, Prospect allowed the loan to close
          with the borrower paying $645 less than the required minimum downpayment,
          which resulted in the mortgage being overinsured by that amount. Prospect
          incorrectly calculated the downpayment to be $3,095, yet it only required the
          borrower to pay $2,505, or $590 less than the amount it calculated. However, we
          determined that the minimum downpayment was supposed to be $2,921, of which
          the borrower only paid $2,276 ($2,505 - $229 = $2,276), or $645 less than the
          required amount. We offset the borrower’s downpayment by $229 because the
          settlement statement indicated that the amount was deducted from the nonprofit
          gift to pay off a debt. HUD does not allow the use of nonprofit gift funds to pay
          off debts.

          HUD Handbook 4155.1, REV-5, paragraph 1-7, provides that the borrower must
          make a cash investment that is at least equal to the difference between the sales
          price and the resulting maximum mortgage amount but that the cash investment
          must equal at least 3 percent of the contract sales price.

          Prospect generally disagreed with our conclusions and stated that the audit treated
          immaterial issues as though they were major problems. We assessed Prospect’s
          response to our tentative conclusions and made deletions and/or revisions when
          warranted. We considered the violations relative to cash assets in conjunction
          with the overall violations for each borrower as presented in the case narratives
          (appendix E).

Excessive Seller Contributions

          Prospect did not properly assess the funds a seller contributed to close one loan.
          As a result, it allowed the seller to contribute more than the 6 percent allowed by
          HUD’s requirements. For example, in case number 105-3247562, Prospect did
          not identify that the seller, a quasi-public corporation, exceeded HUD’s 6 percent
          contribution requirement by $4,979. The excess contribution should have been
          but was not treated as an inducement to purchase with a write-down of the
          mortgage by the amount of the excess contribution.

          HUD Handbook 4155.1, REV-5, paragraph 1-7(A), states that the seller may
          contribute up to 6 percent of the property’s sales price toward the buyer’s actual
          closing costs, prepaid expenses, discount points, and other financing concessions.

                                                12
            Contributions exceeding 6 percent of the sales price or exceeding the actual cost
            of prepaid expenses, discount points, and other financing concessions will be
            treated as inducements to purchase, thereby reducing the amount of the mortgage.

            Prospect generally disagreed with our conclusion. We assessed Prospect’s
            response and found no support that warranted revisions to our tentative
            conclusion.

 Gift Funds Not Properly Verified

            Prospect did not properly verify gift funds paid to closing agents for 15 of the 23
            loans included in our original sample (65 percent). In each case, the borrowers
            received gifts from nonprofit donors. The missing documentation was required to
            provide assurance that the gifts were paid by the nonprofit organizations and not
            by other interested parties to the loan transactions. Prospect provided no
            explanation as to why it did not properly verify whether the settlement agents
            received the gift funds.

            HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds
            are not deposited into the borrower’s account before closing, the lender must
            obtain verification that the closing agent received funds from the donor for the
            amount of the gift.

            In its initial response Prospect disagreed with our conclusions concerning its
            responsibility to verify gift funds received from nonprofits. Prospect later revised
            its response and acknowledged that it was required to verify that the closing
            attorney received the funds and it agreed with our determination that the required
            documentation was not located in the loan file.


Other Less Significant Deficiencies


            Prospect also underwrote two loans (case numbers 105-3428714 and 105-
            3692606) containing underwriting deficiencies that did not affect the loans’
            insurability. These loans involved four of the same violations cited for some of
            the cases discussed above relative to verification of cash to close, minimum
            downpayment, premium pricing (lender’s contributions to borrower closing cost),
            and gift funds. The less significant deficiencies did not relieve Prospect from its
            responsibility to follow all facets of HUD requirements when originating FHA
            loans.




                                             13
    HUD’s Insurance Risk Was Increased
    Due to High-Default-Rate Underwriters

                  The number of repetitive and significant violations detected by the audit raised a
                  concern about the quality of Prospect’s high-default-rate underwriter performance
                  at the two branches that caused Prospect’s high default rate for the Atlanta
                  Homeownership Center. In addition to the loans reviewed, the two branches
                  originated 184 manually underwritten defaulted loans with mortgages that totaled
                  more than $26 million (appendix G). Neighborhood Watch showed HUD paid
                  claims that totaled more than $2.5 million on 18 of the loans and that 128 of the
                  loans, with mortgages that totaled more than $18.4 million, were in default and
                  were 3 to 22 months delinquent. The loans were underwritten by underwriters
                  whose overall default rates for the loans they underwrote for Prospect ranged
                  from 9 to more that 54 percent.



                                                                               Number of                    Loans
                                                               Number of       defaulted                     with
                                Overall                        defaulted        loans at                 significant
                              underwriter       Total           loans at        branch 2                deficiencies
                                default        mortgage          branch          (North                 not listed in
             Underwriter4        rate5         amounts         1(Florida)      Carolina)      Total       this table
                 A              49.39%         $9,747,429          66                          66              9
                 B              42.03%         $3,547,899          28                          28              1
                 C              31.34%         $2,176,477          16                          16              3
                 D              54.17%         $1,969,559          13                          13
                 E               45%           $1,358,448           9                           9
                 F               9.2%           $352,356            3                           3            1
                 G              33.02%         $3,467,473                           27         27            7
                 H              39.13%         $2,656,525                           17         17            1
                  I             11.94%          $862,044                             5          5
               Totals                         $26,138,210           135             49        184            22

                  The number of the recurring significant violations detected in the original audit
                  sample raised a concern about the quality of Prospect’s high-default-rate
                  underwriter performance for the above loans originated by the two branches.
                  Because of this condition, we expanded our sample to review 10 more loans,
                  focusing only on the most prevalent violations detected by our original sample.
                  The violations involved compensating factors and collection accounts. We
                  focused only on loans that were in default, which had back ratios that exceeded
                  HUD’s 43 percent benchmark. We identified 60 loans in that category with

4
 The sample for manually underwritten loans included two loans that were not underwritten by one of the high
default rate underwriters listed in this table. We selected the two loans based on the findings included in Prospect’s
quality control reviews.
5
 The information in this table was obtained from HUD’s Neighborhood Watch system for the underwriters overall
default rates for the Atlanta Homeownership Center jurisdiction and their origination activity at the two Prospect
branches (located in Florida and North Carolina).

                                                          14
mortgages that totaled more than $9 million. We used a random number
generator to identify the 10 sample loans after we arranged the loans by closing
dates.

The review identified the following violations for 5 of the 10 loans (50 percent),
which are discussed in appendix D

                                                      Type of violation
                                                Invalid           Inadequate
                                             compensating       assessment of
   Case number    Underwriter   Back ratio      factors           collections
   381-8363464        H          47.8%             X
   105-3425304        C          46.0%             X
   105-3683691        B          43.7%             X                   X
   105-3440738        C          44.6%             X                   X
   105-3682405        A          44.7%             X                   X
      Totals                                       5                   3

The results of the review further validated our concern about high risk associated
with the quality of the underwriting by Prospect for the remaining defaulted loans
by the two high default branches. The violations affected the insurability of the
loans and could result in potential losses to HUD’s insurance fund totaling more
than $486,000. As discussed in finding 2, we attribute the high default activity at
the two branches to a failure by Prospect and its management to ensure that it
implemented and complied with HUD’s underwriting and quality control
requirements. The results of the review apply only to the loans reviewed and
cannot be projected to the universe of loans.

Prospect disagreed with our conclusions. It stated that this was an example of the
audit attempting to hold Prospect responsible using information that is available
today to cite Prospect for failing to take action at an earlier point, at which time
most of the information upon which the audit based its allegation was not
available.

We considered Prospect’s response and determined that the high default rate trend
for loans the underwriters underwrote for Prospect did not begin to show up in
HUD’s Neighborhood Watch System until the fourth quarter of 2008. By that
time, underwriters A through H had left their jobs at Prospect. We did not
determine when underwriter I left because Prospect could not locate and provide
the personnel file. However, as discussed in finding 2, when Prospect hired most
of the underwriters, they already had default rates that ranged from 12.12 to 58.62
percent for loans they underwrote for other lenders. This should have prompted
Prospect to give closer scrutiny to the quality of the underwriters’ compliance
with HUD’s underwriting requirements before their default rates at Prospect
began to increase.




                                 15
    Conclusion


                  We detected significant violations that affected the insurability of 25 of the 33
                  loans examined, or 76 percent of the sample. The violations resulted in losses on
                  5 loans that totaled more than $344,000 to HUD’s insurance fund and the
                  potential for losses on the remaining 20 loans of more than $1.9 million (see
                  appendices C and D for a list of the loans). The violations exposed HUD’s
                  insurance fund to actual and potential for losses of more than $2.2 million. HUD
                  will review and make a final determination concerning whether the loans met
                  requirements for insurance, along with its consideration of additional information
                  that Prospect provides.

                  We attribute the violations to a failure by Prospect and its managers to ensure that
                  it implemented and complied with HUD’s underwriting requirements discussed
                  above and quality control requirements discussed in finding 2. Prospect did not
                  identify or document the high default rate pattern for the two branches and their
                  high-default-rate underwriters. As a result, Prospect did not take steps to
                  determine the extent of the underwriters’ involvement in problem cases. The
                  significant and consistent violations detected by the audit caused us to question
                  the quality of other defaulted loans underwritten at the branches. The results of
                  our expanded sample provided further justification for our concern. This issue
                  was especially significant considering that the operations at the two branches
                  accounted for 76 percent of Prospect’s defaults in the Atlanta Homeownership
                  Center, excluding loans originated in Illinois and Indiana.

    Recommendations


                  We recommend that the Associate Deputy Assistant Secretary for Single Family
                  Housing

                  1A.      Require Prospect to reimburse HUD $344,326 for the actual loss sustained
                           on five claim-terminated loans that HUD sold.

                  1B.      Require Prospect to reimburse HUD for potential losses on three claim-
                           terminated loans that HUD has not resold. We estimate the losses to be
                           $202,6556.

                  1C.      Require Prospect to indemnify HUD against $1,694,217 in potential losses
                           on 17 defaulted loans.



6
 We calculated the potential loss for recommendations 1B and 1C using the 59 percent average loss rate determined
by HUD for the 2010 fiscal year for real estate owned properties that it sold. We applied the loss rate to the unpaid
principal balances for loans listed in appendices C and D.

                                                         16
1D.   Require Prospect to pay down the principal balance by $3,276 for 4
      overinsured loans. If HUD has paid a claim on any of these loans then it
      should remit the payment to HUD.

1E.   Refer Prospect to the Mortgagee Review Board for not complying with
      HUD’s origination and underwriting requirements.

1F.   Conduct a full underwriting review of the 18 claim-terminated loans
      originated at the two high-default-rate branches to determine if they met
      HUD requirements, and if the loans do not meet the requirements, require
      Prospect to reimburse HUD for either the claim amounts paid or for the
      actual loss HUD sustained.

1G.   Conduct a full underwriting review of any of the remaining 166 defaulted
      loans (184 -18 loans with filed claims) if a claim is filed against the FHA
      insurance fund within 5 years of the endorsement dates for the affected
      loans. Prospect should be required to indemnify HUD if a claim is filed
      on a loan that did not meet HUD’s requirement for approval.

We also recommend that HUD’s Associate General Counsel for Program
Enforcement

1H.   Determine legal sufficiency, and if legally sufficient, pursue civil action
      against Prospect and its underwriters for incorrectly certifying to the
      integrity of the data or that due diligence was exercised during the
      underwriting of 25 loans that placed the FHA insurance fund at risk for
      $550,257 in questioned costs and potential losses of $1,694,217. The
      penalty amount will be determined through a separate civil process.

1I.   Take appropriate administrative action against Prospect and underwriters
      A, B, C, F, G, and H for not complying with HUD requirements. The
      underwriters were responsible for the violations identified in appendices C
      and D.




                                17
Finding 2: Prospect Did Not Effectively Implement Certain
Components of Its Quality Control Processes

Prospect did not effectively implement certain components of its quality control processes that
contributed to loan origination deficiencies by several underwriters and two branch offices
discussed in finding 1. The deficient quality control processes involved a specific large group of
defaulted loans. Specifically, Prospect did not effectively implement components of its quality
control processes relative to

             Annual reviews of two recently acquired branches and their staffs,
             Identification of loan origination violations,
             Classification of loan origination violations,
             Reverification of borrower qualifying information, and
             Documentation of corrective action for quality control findings.

We attribute these issues to a past failure by Prospect management to ensure that it implemented
and documented effective quality control practices that complied with HUD requirements. The
above issues hindered Prospect’s ability to identify and correct performance problems, which
contributed to its high default rate in the Atlanta Homeownership Center. The high default
activity exposed HUD’s insurance fund to actual losses with an increased risk for additional
losses on other defaulted loans that caused Prospect’s high 12.29 percent default rate for the
Atlanta Homeownership Center (finding 1).



Inadequate Review of Activity by Recently
Acquired Branches and Their Staffs

                  Prospect did not conduct or document that it conducted the required annual
                  reviews to assess the performance of two acquired branch offices and their staffs.
                  The acquisitions included one branch located in Florida (branch 1) and another
                  branch located in North Carolina (branch (2). The default activity at the two
                  branches caused Prospect’s default rate for the Atlanta Homeownership Center to
                  reach 12.29 percent for loans originated for the period December 1, 2007, through
                  November 30, 2009.7 This default rate was significant considering that during
                  that same period Neighborhood Watch showed that Prospect’s default rates for
                  the Santa Ana, Denver, and Philadelphia Homeownership Centers were only 2.7,



7
 Neighborhood Watch showed that during this period, Prospect had 554 defaults for the Atlanta Homeownership
Center (excluding Illinois and Indiana), of which 423, or 76 percent, of the defaults were for loans originated by the
two branches. We excluded 21 defaults for Illinois and Indiana because, although they were within the Atlanta
Homeownership Center, they were located outside HUD OIG’s Region IV, and the loans were not underwritten by
either of the two branches that were responsible for Prospect’s high default activity for the Atlanta Homeownership
Center.

                                                          18
               3.18, and 5.30 percent, respectively. Prospect did not document that it took
               timely actions to identify and to correct performance problems at the two
               branches. Specifically, Prospect did not

               Conduct or document annual reviews of the two branches - Prospect did not
               conduct or document that it conducted the required annual reviews of the newly
               acquired branches 1 and 2, including the performance of the underwriters who
               were included in the acquisitions. Prospect acquired the branches and some of
               their staff members, including underwriters from two lenders based on terms
               stipulated in the acquisition agreements it executed with them. It acquired branch
               1 in July 2007 and branch 2 in August 2007. As discussed below, when Prospect
               purchased the branches most of the branch underwriters already had default rates
               that ranged from 12.12 to 58.62 percent for FHA loans they underwrote for other
               lenders. After the acquisitions, the default rates for the branches began and
               continued to climb based on defaults on loans the underwriters approved for
               Prospect.
               25

               20

               15
Default rate




               10                                                                ATL HOC
                                                                                 Branch 1
               5                                                                 Branch 2

               0




                          Atlanta Homeownership Center Default Rate Activity
               The two branches had 423 defaults that included 195 automated loans and 228
               loans that were manually underwritten (the primary focus during the audit).
               Prospect provided no documentation to support that it identified, assessed, and
               corrected performance problems that caused or contributed to the high defaults.

               Prospect acknowledged that it did not conduct the annual reviews of the branch
               offices and the underwriters. However, it disagreed with our assessment because
               it no longer employed the underwriters by the time their high default rates for
               Prospect loans began to show up in the fourth quarter of 2008. Prospect also
               explained that the issues we raised were moot, because it later implemented
               organizational and management changes and improvements that took away many
               of the type of loans at issue in the audit. We did not audit the stated




                                               19
improvements because the audit focused on manually underwritten loans, and
Prospect had substantially reduced the volume of such loans.

We disagree with Prospect’s position that the issues were moot because of the
improvements it made in operations and the departure of the problem
underwriters discussed below. The departure of the underwriters did not
eliminate the effects of their default activity at the two branches, which continue
to pose a risk for increased losses to the FHA insurance fund. The annual reviews
could have provided Prospect with an opportunity to identify underwriting
problems which lead to the above high default rates that began to show up in the
fourth quarter of 2008. As discussed below, most of the underwriters already had
high default rates for FHA loans they underwrote for other lenders before
Prospect hired them. The high default rates increased the need for the required
annual reviews which Prospect did not conduct or document.

Assess the performance of underwriters with high default rates - Prospect did not
document that it assessed and addressed the high default activity of nine
underwriters who underwrote loans at the two branches discussed above. The
underwriters had overall default rates that ranged from 9 to more than 54 percent
associated with loans they underwrote for Prospect. Prospect explained that it
aggressively managed the performance of underwriters and had parted ways with
problem underwriters, either through terminations or voluntary dismissals.
Despite this explanation, the personnel files for the underwriters showed no
evidence that any of them had their employment terminated for performance
problems.
                                      Overall                          Loans
                                    underwriter                   reviewed that
                                      default                        involved
     Branch and        Loans in       rate for      Mortgage        significant
     underwriter        default    Prospect loans   Amounts        deficiencies
      Branch 1
         A               79            49.39%       $11,652,682        9
         B               29            42.03%         3,687,664        1
         C               21            31.34%         2,993,684        3
         D               13            54.17%         1,969,559
         E                9             45%           1,358,448
         F                4             9.2%            702,921        1
            Subtotal    155                         $22,364,958
      Branch 2
         G                33           33.02%        $4,362,649        7
         H                18           39.13%         2,896,975        1
          I                5           11.94%           862,044
            Subtotal     56                          $8,121,668
 Totals                  211                        $30,486,626        22

Prospect could not produce records to support that it had identified the above
pattern of defaults and followed up to address the cause for this condition. This
was important because underwriters A, B, C, F, G, and H had default rates of



                                  20
                  41.94 percent, 58.62 percent, 33.33 percent, 37.72 percent, 50 percent, and 12.12
                   percent respectively prior to their employment at Prospect8.

                  We assessed the quality of the underwriters’ work during the review of
                  origination activity discussed in finding 1. Based on the violations detected by
                  the reviews, we concluded that their performance was a factor that caused or
                  contributed to their high default rates at Prospect. For instance, underwriters A,
                  B, C, F, G, and H had high default rates before they came to Prospect and they
                  underwrote 184, or 87 percent, of the manually underwritten loans that went into
                  default at the two Prospect branches. Our sample included 22 deficiently
                  underwritten loans by those six underwriters which are summarized in appendices
                  C and D. Each of the loans contained one or more significant underwriting
                  violations, which individually or collectively affected the insurability of the loans.
                  The prevalence of significant underwriting violations in the sample exposed HUD
                  to a high risk for losses on other defaulted loans underwritten at the two branches
                  by the high-default-rate underwriters listed in the above table.9

                  To illustrate, underwriters A and G had the highest default volume at the two
                  branches, but their personnel files contained no evidence that Prospect had raised
                  concerns about their underwriting performance or their previous high default
                  rates. The file showed that underwriter A was hired on February 5, 2002, by the
                  prior lender, who owned the branch, and that Prospect terminated the
                  underwriter’s employment on November 4, 2008, due to a “lack of work.” The
                  file contained no evidence that Prospect questioned the underwriter’s high default
                  rate and/or performance for the period before or after it employed the underwriter.
                  The file showed that Prospect hired underwriter G on March 25, 2008, and that it
                  terminated the underwriter on December 31, 2008. The file contained no
                  performance reviews, and it did not document a reason for the termination. Also,
                  the file contained no evidence that Prospect questioned the underwriter’s high
                  default rate for the period before it employed the underwriter.

                  HUD Handbook 4060.1, REV-2, paragraph 7-3(G)(2), provides that annual visits
                  are mandatory for offices meeting certain higher risk criteria such as high early
                  default rates, new branches or new key personnel, sudden increases in volume, and
                  past problems. Paragraph 7-5(C) provides that lenders must identify patterns of
                  early defaults and that they must identify commonalities among participants in the
                  mortgage origination process to learn the extent of their involvement in problem
                  cases. Loans involving loan officers, processors, underwriters, etc., who have been

8
  We downloaded the underwriter default data from HUD’s Single Family Data Warehouse for the 2 year period
ended June 30, 2007. This data was not currently available in the Neighborhood Watch System but it was available
in that system at the time Prospect purchased the two branch offices and hired the underwriters. At that time
Prospect could have retrieved the Neighborhood Watch reports to determine and to assess the underwriters’ default
rates.
9
  The prevalence of violations identified by the sample caused us to have concern about the quality of Prospect’s
underwriting of other high risk loans originated by the high default rate underwriters who underwrote loans at the
two high default rate branches.

                                                         21
            associated with problems, must be included in the review sample. Paragraph 7-3(F)
            provides that the lender must expand the scope of the quality control review when
            patterns of deficiencies are uncovered to review an increased number of files and to
            perform a more indepth review. Paragraph 7-6(C) (1) provides that emphasis should
            be placed on any participants that have large volumes of loans or show sudden
            increases in loan volumes or loan default rates.

Inadequate Identification of
Violations

            Prospect’s quality control reviews often did not identify noncompliance with
            HUD’s underwriting requirements. For instance, the following table shows
            examples of 13 early payment default loans for which our review identified
            violations that were not identified by Prospect quality control reviewers. The 13
            defaults include eight loans underwritten by the previously discussed high default
            underwriters A (six loans) and G (two loans).

                                                                 Violation type detected by
             Deficiency type                                      OIG*         Prospect
             Questionable or undocumented compensating factors      8             2
             Credit not properly assessed                          12             7
             Inadequate assessment of cash assets                   8             1
             Income not properly assessed                           6             2

             *Office of Inspector General

            The violations not detected by Prospect’s review further contributed to its failure
            to identify and correct performance problems at the two branch offices for loans
            that were underwritten by high-default-rate underwriters.

            HUD Handbook 4060.1, REV-2, paragraph 7-3(F), provides that the quality
            control reviews must thoroughly evaluate the lender’s origination function to
            determine the root cause of deficiencies. HUD Handbook 4060.1, REV-2,
            paragraph 7-3(E), provides that the quality control review must evaluate the
            accuracy and adequacy of the information and documentation used in reaching
            decisions in the origination process.

            Prospect did not agree with our assessment because it took exception to our
            conclusions. We assessed Prospect’s response to our tentative conclusions and
            made deletions and/or revisions in instances when warranted. The statistics cited
            in the above table are an accurate summary of the violations detected by the audit.




                                               22
Inadequate Classification of
Violations

            Prospect did not consistently classify the severity of the violations detected by its
            quality control reviews. HUD suggests that lenders classify the severity of all
            violations detected by quality control reviews. We examined Prospect’s quality
            control review summaries for both its 10 percent sample reviews and its early
            payment default reviews. Prospect classified the severity of violations for its 10
            percent sample quality control reviews but did not classify the violations detected
            in its early payment default reviews. HUD suggests the use of classifications to
            enhance lenders’ ability to identify patterns and to assess the significance of the
            review results. The classifications also would have assisted management in
            identifying violations that it was required to report to HUD.

            HUD Handbook 4060.1, REV-2, paragraph 7-4, recommends that quality control
            reports include an assessment of risks to enable a lender to compare 1 month’s
            sample to previous samples so the lender may conduct trend analysis.
            Management can also use this tool to respond quickly to a sudden decline in the
            quality of its loans and help identify and correct the problem. Lenders may
            consider a ratings system such as low risk, acceptable risk, moderate risk, and
            material risk. Material risk is for loans that involve material violations of FHA or
            lender requirements and represent an unacceptable level of risk.

            In its initial response, Prospect disagreed with our determination and stated that it
            did classify the severity of violations for the early payment default loans.
            However, Prospect later revised their response and stated that the extent that such
            classifications were not made likely resulted from their switch from a external to
            an internal quality control review process.

Inadequate Reverifications of
Borrower Information

            Prospect either did not conduct or did not maintain documentation to support that
            it conducted all of the required reverifications as part of its quality control review
            process. We examined the quality control files for 15 loans and determined that

                   15 did not contain updated credit reports,
                   15 did not include reverification of gift payments,
                   11 did not include reverification of deposits, and
                   8 did not include reverification of employment.

            HUD Handbook 4060.1, REV-2, paragraph 7-6(E), provides that the quality
            control program must provide for the review and confirmation of information on
            all loans selected for review. Paragraph 7-6(E)(2) provides that documents
            contained in the loan file should be checked for sufficiency and subjected to

                                              23
            written reverification. Examples of items that must be reverified include but are
            not limited to the borrower’s employment or other income, deposits, gift letters,
            alternate credit sources, and other sources of funds.

            In its initial response, Prospect disagreed with our determination. However,
            Prospect later revised their response and stated that to the extent that the re-
            verifications were not documented this condition likely resulted from reviews
            completed during an out-dated quality control process on loans originated under a
            prior management team.

 Inadequate Documentation of
 Corrective Action


            We reviewed Prospect’s quality control results for 15 loans and determined that it
            did not document what actions, if any, it took to resolve the findings. The reports
            and the quality control files did not contain or reference the required corrective
            actions and timetables for completing corrective actions. We requested this
            documentation, but Prospect did not produce the documentation needed to support
            actions it took to resolve the finding. Prospect’s representative stated that
            Prospect did not take corrective action because several of the employees involved
            with the violations were no longer employed by it. Prospect’s failure to document
            that it took appropriate corrective action may have contributed to the continued
            high default activity previously discussed for branches 1 and 2.

Prospect Acknowledged Past Problems
with Its Quality Control Processes


            Prospect’s management acknowledged past problems with its quality control
            processes. Prospect’s representatives stated that in 2009, among other actions, the
            Company brought in a new management team which revised and improved its quality
            control systems and procedures. The representative stated that the company went
            from an out-sourced contractor to conduct quality control reviews to an in-house
            quality control review process. Prospect’s representatives attribute the reduction in
            the Company’s compare ratio for the Atlanta Homeownership Center to its improved
            quality control processes. We did not audit the cited improvements because Prospect
            had substantially reduced the volume of manually underwritten loans that were the
            focal point of the audit. However, we validated that in 2009 Prospect brought in a
            new management team who revamped the company’s quality control processes and
            converted from an external contractor to its in-house staff process. We also validated
            that Prospect used its in-house staff to not only review the origination activity for
            loans made after the transition but also reviewed and prepared reports on a large
            number of loans approved before the transition.

            We reviewed the HUD Neighborhood Watch system and determined that Prospect’s
            overall compare ratio for the Atlanta Homeownership Center dropped from 164
            percent for the quarter ended December 31, 2009 to 93 percent for the quarter ended

                                              24
             March 31, 2011. We could not determine to what extent the reductions were
             attributed to the improvements Prospect implemented in its quality control processes.
             The improvements, however, did not remove the high risk to HUD for the loans
             discussed in finding 1 which we attribute to past failures in Prospect’s quality control
             processes. Those processes contributed to Prospect’s failure to identify and take
             actions to address the cause for the high default rate underwriters and branch offices
             discussed in finding 1. The above sections discuss the areas in Prospect’s past quality
             control processes that exposed HUD’s insurance fund to actual losses and the
             ongoing potential for additional losses.

Conclusion

             Prospect did not document and support that its past quality control review process
             was adequate to ensure the (1) annual review of activity by the two recently
             acquired branches and their staffs, (2) consistent identification of material
             underwriting violations, (3) consistent classification of violations, (4)
             documentation of reverification of borrower information, and (5) documentation
             of corrective action taken on quality control findings. As a result, Prospect did
             not identify or document that it identified and resolved a pattern of high default
             activity at two of its branches. The default activity associated with the branches
             and their underwriters increased Prospect’s overall default rate for the Atlanta
             Homeownership Center to 12.29 when its default rates for the Santa Ana, Denver,
             and Philadelphia Homeownership Centers were only 2.7, 3.18, and 5.30 percent,
             respectively. The high default activity at the two branches exposed HUD’s
             insurance fund to actual losses and the potential for additional losses on 184
             defaulted loans with mortgages that totaled more than $26 million (finding 1).

             We attribute the above issues to a past failure by Prospect management to ensure
             that it implemented and documented quality control practices that complied with
             HUD requirements.


Recommendations

             We recommend that the Associate Deputy Assistant Secretary for Single Family
             Housing

             2A.     Refer Prospect to the Mortgagee Review Board for not complying with
                     HUD’s quality control requirements that exposed the insurance fund to
                     losses and the risk for additional losses on the defaulted loans discussed
                     above and in finding 1.




                                               25
                         SCOPE AND METHODOLOGY

We performed the audit between January 2010 and March 2011 and conducted the audit
fieldwork at Prospect’s Sherman Oaks, CA, home office and our office in Atlanta, GA. The
audit covered the period December 1, 2007, through December 31, 2009, and we extended the
period as necessary.

We did not review and assess general and application controls over computer-processed data for
HUD’s Neighborhood Watch system. Instead, we conducted other tests and procedures to assure
the integrity of computer processed data that was relevant to our audit objectives. The tests
included a comparison of the information shown in Neighborhood Watch, for the audit samples
discussed below, to what the actual HUD-1 settlement statements, mortgage credit analysis
worksheets, and loan applications showed for

       Borrower’s name,
       Loan purpose,
       Qualifying debt-to-income ratios, and
       Mortgage amounts.

Our analysis showed that the qualifying debt-to-income ratios in the HUD system were not
accurate for 2 of the 33 loans reviewed based on documents contained in the loan files. We did
not identify any discrepancies for the other three areas tested. The incorrect qualifying debt-to-
income ratios did not impact our review because we relied on the source documentation
contained in the FHA loan files provided by Prospect.

To achieve our objective, we reviewed HUD’s rules, regulations, and guidance for proper
origination and submission of FHA loans. In addition, we interviewed HUD staff to obtain
background information on HUD requirements and background information on Prospect. On a
selective basis, we interviewed borrowers and visited the offices of settlement agents to review
their records relative to the receipt and disbursement of funds to close certain loans.

We interviewed Prospect’s management and staff to obtain information regarding its policies,
procedures, and management controls. We reviewed Prospect’s written policies and procedures
to gain an understanding of how its processes were designed and functioned. The primary focus
of the review was to assess the quality of manually underwritten loans due to the high default
rate activity for that loan type. We sampled 33 of the 554 loans that defaulted during the audit
period based on default data obtained from HUD’s Neighborhood Watch system. We selected
the 33 loans based on specific selection criteria. The sample included

       23 loans that we reviewed to determine compliance with requirements for borrowers’
       assets, income, liabilities, and creditworthiness. The 23 loans included 18 loans which
       we selected from a universe of 254 defaulted loans that were manually underwritten by
       high default rate underwriter which we selected based on a risk assessment. The
       assessment gave weighted consideration to a number of factors including but not limited
       to high-default-rate underwriters, high debt-to-income ratios, low payment defaults, and


                                                26
       Prospect’s quality control review findings. The review included 3 loans selected from the
       universe of 254 manual loans that were not underwritten by high default rate
       underwriters. This includes two manually underwritten loans selected based on the
       results of Prospect’s quality control review findings and one automated loan that was
       incorrectly shown as manually underwritten in Neighborhood Watch. The sample also
       included two automated loans from the universe of 300 automated loans that Prospect
       made during the audit period. We limited our review of loans from this universe to
       include only those loans which contained major violations based on Prospect’s quality
       control findings.

       10 manually underwritten loans selected as an extended sample based on the results of
       our review of the above sample. These loans were selected from a universe of 60 loans,
       which were a subset of the 254 defaulted loans discussed above that were manually
       underwritten. We extracted the 60 loans from the larger universe of defaulted loans using
       as criteria loans that had a debt-to-income ratio of at least 43 percent which were also
       underwritten by one of Prospect’s high-default-rate underwriters employed by either
       branch 1 or 2. The extended sample focused only on the adequacy of compensating
       factors and the borrower’s credit history based on the trends revealed from the results of
       the above sample. We sorted the 60 loans by closing date and used EZ-Quant Statistical
       Analysis Software’s random number generator to identify the random numbers used to
       select the 10 loans. The results of our review for the sample apply only to the loans
       reviewed and cannot be projected to the universe of loans.

The amounts shown in appendix A for questioned costs and funds to be put to better use apply
only to loans reviewed during the audit. The ineligible cost ($347,602) represents the actual loss
HUD incurred on the resale of the affected properties ($344,326) and overinsured mortgage
amounts ($3,276). The unsupported cost ($202,655) and the amounts reported as funds to be put
to better use ($1,694,217) represents 59 percent of the unpaid principal balance (shown in
appendices C and D) based on information provided in Neighborhood Watch. The 59 percent
loss rate is supported by HUD’s Single Family Acquired Asset Management System’s Case
Management Profit and Loss by Acquisition as of September 2010 based on actual sales.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                27
                              INTERNAL CONTROLS


Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                  Program operations – Policies and procedures that management has
                  implemented to reasonably ensure that a program meets its objectives.

                  Compliance with laws and regulations – Policies and procedures that
                  management has implemented to reasonably ensure that resource use is
                  consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing
               their assigned functions, the reasonable opportunity to prevent, detect, or correct
               (1) impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on
               a timely basis.




                                                28
Significant Deficiencies


             Based on our review, we believe that the following items are significant
             deficiencies:

                Prospect did not fully comply with HUD underwriting requirements (see
                finding 1).

                Prospect did not effectively implement certain components of its quality
                control processes (see finding 2).




                                             29
                                     APPENDIXES

Appendix A
              SCHEDULE OF QUESTIONED COSTS AND
                FUNDS TO BE PUT TO BETTER USE

     Recommendation                                                     Funds to be put to
         number              Ineligible 1/       Unsupported 2/           better use 3/

             1A                 $344,326
             1B                                     $202,655
             1C                                                             $1,694,217
             1D                    $3,276           ________               __________

            Total               $347,602            $202,655               $1,694,217

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations. The amount shown represents the actual loss HUD incurred when
     it sold the affected properties. See appendix C for the loans that make up the amount in
     this column, which includes $3,276 associated with the over-insurance of 4 loans.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures. In this instance, we estimated unsupported costs
     to be 59 percent of the unpaid balance paid based on information provided by HUD. The
     amount in this column consists of $137,964 for loans listed in appendix C and $64,691
     for loans listed in appendix D, for a total of $202,655.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, we estimated funds to be put to better use
     at 59 percent of the unpaid principal balance. HUD provided information that shows its
     loss on sales averages 59 percent of the claim paid. We used 59 percent of the unpaid
     principal balance because HUD had not paid claims for these loans. The amount in this
     column consists of $1,227,270 for loans listed in appendix C and $421,938 for loans
     listed in appendix D, for a total of $1,694,217.



                                               30
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION



Ref to OIG Evaluation                Auditee Comments




Comment 1

                        OIG Evaluation of Auditee Comments




                                        31
Comment 2




Comment 3




            32
Comment 4




            33
Comment 5




            34
Comment 4




Comment 1




            35
Comment 6




Comment 7




            36
Comment 6


Comment 5




            37
Comment 8




Comment 5



Comment 9




Comment 10




             38
Comment 10




Comment 11




             39
Comment 11




Comment 5




Comment 6




Comment 5




             40
Comment 12




Comment 13




             41
Comment 5




Comment 14



Comment 14




             42
Comment 14




Comment 5




Comment 15


Comment 15




             43
Comment 15




             44
Comment 15




Comment 16




             45
Comment 5
Comment 17




Comment 17




             46
Comment 18


Comment 18




Comment 19




Comment 20




             47
Comment 20




Comment 21




             48
Comment 21




             49
Comment 21




Comment 22




             50
Comment 22




Comment 22




Comment 22




             51
Comment 5




Comment 23




Comment 22




             52
Comment 1




Comment 6




            53
Comment 24




Comment 1




Comment 24




             54
Comment 25



Comment 25




Comment 25




             55
Comment 25




Comment 25




Comment 25




             56
Comment 25




Comment 25




Comment 26




             57
Comment 26




Comment 26




Comment 26




Comment 4




             58
Comment 5



Comment 25




Comment 25




             59
Comment 25




Comment 25




             60
Comment 25




Comment 25




             61
Comment 5


Comment 25




             Comment 5




                62
                         OIG Evaluation of Auditee Comments

Comment 1   Prospect incorrectly stated that we recommended that HUD conduct an
            underwriting review of 184 loans. We recommended that HUD conduct an
            underwriting review of any of the 184 loans that result in claim requests to HUD.

Comment 2   Prospect took issue with our sample alleging broader fair lending implications
            based on the socio-economic composition of the sample. The socio-economic
            composition of the sample has no bearing on whether or not FHA underwriting
            requirements were complied with. The process we used to select the sample is
            explained in the methodology section of the report, and it did not consider the
            borrowers’ socio-economic status. The sample selection criteria included, but
            were not limited to, objective factors such as early payment defaults, high front
            and back ratios, and approvals by underwriters who had high default rates.

Comment 3   Prospect requested an opportunity to respond to any substantive comment that we
            make in the report after we consider their written response. During the audit we
            provided Prospect several opportunities to respond to our conclusions after which
            we made revisions where appropriate, and we noted in the report where Prospect
            disagreed with our conclusions (see comment 5). We explained to Prospect that
            our reporting policy is to incorporate their final response into the report followed
            by our assessment of their comments. We informed Prospect that we would not
            give them the opportunity to respond to our assessment in the report but that it
            will have the opportunity to provide further comments to HUD as they consider
            our recommendations and whether or not to accept them.

Comment 4   Prospect commented that before the audit began that it had made significant
            changes to the company’s management, personnel, underwriting policies, and
            quality control procedures. Given these circumstances, Prospect commented that
            many, if not all, the issues raised in the report were addressed and resolved before
            the onset of the audit. Our report recognized that Prospect made certain changes
            noted in its response, but they did not resolve the reported violations nor did they
            remove the risk of losses the loans pose to HUD’s insurance fund

Comment 5   Prospect commented that its review indicated that several of the findings in the
            report are at variance with the facts, do not constitute violations of HUD/FHA
            requirements, or do not affect the underlying loans’ insurability. Prospect also
            commented that underwriting is more of an art than a science and that an
            underwriter has to exercise discretion in deciding whether or not to approve or
            reject a loan. We acknowledge Prospect’s position, however the underwriter’s
            decision to approve a loan should still fall within FHA requirements and the
            decision must be adequately documented and supported. During the audit, we
            provided Prospect several opportunities to review our tentative conclusions and to
            provide documentation to support that the loans met requirements. Based on the
            information Prospect provided during the audit and in this response, we revised
            the report to delete several issues where the documentation supported Prospect’s
            position and we revised several other issues to clarify our presentation. We

                                             63
              concluded that the remaining deficiencies discussed in the report represent
              violations which require a final determination by HUD. We included language in
              the report to note Prospect’s disagreements.

              In addition, Prospect’s comments indicate that it did not disagree with all of the
              reported issues. However, it did not provide complete information to identify
              which loans involved violations it considered to be valid.

Comment 6     Prospect commented that the cursory review of the 10 loans for compensating
              factors and collection accounts was not sufficient to determine the
              creditworthiness of the borrowers. Therefore, Prospect commented that the
              violations reported for 5 of the 10 loans should be removed from the report. We
              disagree because the review, though limited to the indicated issues, was not
              lacking in thoroughness. We reviewed the loan files and found no documentation
              to justify the loan approvals given the issues detected concerning compensating
              factors and collection accounts. The violations detected by the review
              (summarized in finding 1 and detailed in appendix D) were significant enough to
              justify a determination that the loans did not meet HUD’s requirements for
              approval.

Comment 7     Prospect commented that we sampled 33 loans, but it provided us with
              approximately 170 loan files. We identified the files requested from Prospect by
              a preliminary assessment of risk indicators that included, but were not limited to,
              defaulted loans, high default rate underwriters, high front and back ratios, and
              Prospect’s quality control findings. We then used the files Prospect provided to
              gather further trend data which we used to select the audit sample.

Comment 8     Prospect correctly noted that the report referred to HUD’s 43 percent benchmark
              as a limit. We revised the report to change the word limit to benchmark.

Comment 9     We acknowledge that HUD Handbook 4155.1, REV-5, paragraph 2-13, states that
              prospective income from a secondary wage earner can be used as a compensating
              factor in cases that involve homes purchased as a result of the relocation of the
              primary wage earner. The report cited two loans that involved compensating
              factors which we did not accept for income earned by a spouse because no
              relocation was involved. We discussed the two loans with a HUD representative
              who agreed with our determination.

Comment 10 Prospect disagreed with the report calling each instance involving a compensating
           factor which we did not consider to be valid or properly supported a violation.
           We revised the report to omit the term violation relative to these instances.

Comment 11 We acknowledge that Prospect documented that the borrower would receive a
           raise as evidenced on the verification of employment, but it did not establish the
           extent to which the raise justified exceeding HUD’s benchmark ratio. Prospect
           cited Mortgagee Letter 2005-16 which provided HUD’s 43 percent benchmark
           that was in effect when it made the loan. However, Mortgagee Letter 00-24 states

                                               64
              that FHA does not set an arbitrary percent by which ratios may be exceeded but
              rather FHA relies on the underwriter to judge the overall merits of the loan
              application and to determine what compensating factors apply and the extent to
              which those factors justify exceeding HUD’s benchmark (Emphasis by OIG).
              Thus, HUD expects the underwriter to ensure that the compensating factor is
              among those allowed by HUD and to assess the extent to which a factor justifies
              exceeding HUD’s benchmark. We determined that the projected raise, though
              generally permitted as a compensating factor, was not valid because the increase
              did not significantly reduce the borrower’s debt-to-income ratio. The underwriter
              did not consider and make this determination. Furthermore, the borrower did not
              meet the stated compensating factor of having a conservative attitude towards
              credit because that factor is coupled with a requirement for accumulated savings.
              The borrower’s bank statement showed a balance of only $39.

Comment 12 Prospect denied that it was required to document compensating factors to support
           its approval of loans with credit problems. As cited in the report, HUD Handbook
           4155.1, REV-5, paragraph 2-3, states that if the credit history, despite adequate
           income to support obligations, reflects continuous slow payments, judgments, and
           delinquent accounts, strong compensating factors will be necessary to approve the
           loan.

Comment 13 We agreed with Prospect’s response concerning the need to revise the report
           relative to loans where the borrower had overdraft charges as opposed to
           insufficient fund charges. We revised the report to delete references to violations
           for items that were returned due to insufficient funds when the borrower had other
           accounts that covered the insufficient funds.

Comment 14 Prospect commented that it obtained a letter of explanation for the $1,290
           collection account that was 8 years old at the time of the loan. The borrower’s
           letter of explanation did not dispute responsibility for the collection account. The
           letter explained how the collection account occurred, but it did not explain why
           the borrower had not paid the debt by the time of the loan application. The loan
           file contained no evidence that the underwriter assessed the explanation to
           determine why the borrower had not paid the debt even though the borrower had a
           full time job.

              The audit showed a pattern among the cases discussed in appendix E where the
              loan files contained letters of explanation for undisputed collection and delinquent
              accounts with no evidence that the underwriters assessed them. The assessments
              were required to determine if the conditions resulted from circumstances that
              were beyond the borrowers’ control or from their disregard for the unpaid
              obligations. The file showed that the underwriters often accepted borrower letters
              of explanation for undisputed account balances with no documentation of the
              required assessments. HUD Handbook 4155.1, REV-5, paragraph 2-3, provides
              that when analyzing a borrower's credit history, lenders are required to examine
              the overall pattern of credit behavior, rather than isolated occurrences of
              unsatisfactory or slow payments. When delinquent accounts are revealed, the

                                               65
              lender must document their analysis (Emphasis by OIG) as to whether the late
              payments were based on a disregard for financial obligations, an inability to
              manage debt, or factors beyond the control of the borrower, including delayed
              mail delivery or disputes with creditors.

Comment 15 We recognize that Prospect obtained a verbal verification of employment income
           and reviewed the borrower’s work history. However, as cited in the report,
           Prospect did not confirm the borrower’s probability of continued employment.
           HUD Handbook 4155.1, REV-5, paragraph 2-6 provides that to analyze and
           document the probability of continued employment, lenders must examine the
           borrower’s past employment record, qualifications for the position, previous
           training and education, and the employer's confirmation of continued employment.
           (Emphasis by OIG) Prospect did not obtain the required verification from the
           employer concerning the borrower’s probability of continued employment.

Comment 16 Prospect disagreed with several tables in the report where the number of
           violations exceeded the number of loans reviewed during the audit. We explained
           to Prospect that this occurred because several of the loans involved multiple
           violations. We added footnotes to the report to clarify the presentations, and we
           revised the report in one instance where we agreed with Prospect’s observation
           (comment 10).

Comment 17 Prospect disagreed with the cases where we included borrower debts which had
           less than 10 remaining monthly payments. Prospect stated that we did not accept
           their exclusion of such payments in any of the loans we examined. It stated that
           our interpretation would render the requirement governing this issue moot. We
           disagree. HUD Handbook 4155.1, REV-5, paragraph 2-11(A), provides that
           debts lasting less than 10 months must be counted if the amount of the debt
           affects the borrower's ability to make the mortgage payment during the months
           immediately after loan closing. We included the debts based on documentation
           contained in the loans file. The files showed that the borrowers already had high
           debt-to-income ratios, derogatory credit histories, and or low cash reserves. We
           concluded that the underwriters should have also included the debts because these
           conditions met the handbook requirement for including them.

              Specifically, Prospect disagreed with our inclusion of the $376 debt in a
              borrower’s debt-to-income ratio calculation because it had less than 10 months of
              remaining payments and the borrower had enough reserves ($2,300) to pay-off the
              $1,470 balance. We agree that the file did show that the borrower had enough
              reserves to pay off the debt but that did not occur. Also, as discussed in Appendix
              E, we had unresolved questions about the reserve balance. The debt increased the
              borrower’s back ratio from 49.72 percent to 59.52 percent at a time when the
              credit report showed that the borrower owed more than $7,700 for collection
              accounts. We included the debt because the high ratio and collection accounts
              indicated the debt may affect the borrower’s ability to make the mortgage
              payment during the months immediately after the loan closed.



                                              66
Comment 18 Prospect disagreed with our assessment concerning the lack of verification of
           large earnest money deposits, because in several instances the amounts were as
           low as $500 and were less than 2 percent of the sales price. HUD Handbook
           4155.1, REV-5, paragraph 2-10, required lenders to verify with documentation the
           deposit amount and the source of the funds if the earnest money deposit exceeds 2
           percent of the sales price or appears excessive based on the borrower’s history of
           accumulating savings. The cited cases appeared excessive based on the
           borrower’s history of accumulating savings.

Comment 19 Prospect commented that the cited deficiencies related to the premium pricing
           contributions were immaterial, and HUD has since updated Handbook 4155.1 to
           remove the premium pricing itemization requirement. We recognize Prospect’s
           position but the requirement was in effect when the underwriters approved the
           loan and they should have followed the requirement. We also recognize that by
           itself the premium pricing issue would not affect the insurability of the affected
           loans. However, as stated in the report, we considered these deficiencies in
           conjunction with the overall violations identified for each borrower.

Comment 20 Prospect disagreed with our assessment that there was an excess seller
           contribution in case 381-8479987. We examined the basis for Prospect’s
           disagreement and we agreed with their position. We deleted this issue from the
           report.

Comment 21 Prospect commented that the gift wire transfer violations should be removed from
           the report because it was a harmless error, and they subsequently obtained the
           support after we cited the violation. We recognize that Prospect later obtained the
           missing documents needed to verify the gift funds. However, the documentation
           was required to be obtained and assessed during the underwriting process and
           before Prospect approved the loans. Thus, as cited in the report, Prospect did not
           comply with the requirements.

Comment 22 Prospect disagreed with the methodology we used to calculate the dollar amount
           cited in recommendation 1C. We based the calculations on HUD OIG’s policy to
           estimate potential savings to HUD from indemnifications associated with
           improperly originated loans using the average loss severity rate supported by
           HUD’s Single Family Acquired Asset Management System’s Case Management
           Profit and Loss by Acquisition. The actual calculation is explained in the report.

Comment 23 Prospect requested that the report include specific language, including but not
           limited to, statements that the findings reflect the views of the Office of Inspector
           General and do not constitute a final determination which will be made by the
           report addressee. Finding 1 already included wording that addressed Prospect’s
           concern.




                                               67
Comment 24 Prospect objected to the report’s reference to the $26 million for loans approved
           at two branch offices by high default rate underwriters. The reference is
           appropriate and necessary to inform HUD of specific activity identified during the
           audit that warrants further review consideration. The loans were approved by
           underwriters who had high default rates before and after they started to work for
           Prospect. Contrary to Prospect’s position, finding 1 discussed the loans that make
           up the $26 million and the reason we concluded that they represented a higher risk
           to HUD. The report never stated or implied that HUD will experience losses on
           each of the loans.

Comment 25 Prospect’s response to finding 2 concentrated on improvements it made to its
           quality control processes after its two branches had approved most of the loans
           questioned by the audit. We revised the report to recognize the quality control
           changes observed during the audit. In its response, Prospect commented, “We
           acknowledge that, at the time of the acquisition of the branches at issue in 2007,
           the Company’s prior management did not strictly adhere to the Department’s on-
           site review requirements.”

              The improvement Prospect made to its quality control processes did not eliminate
              the risk associated with the loans. Prospect, as a company, was responsible for
              maintaining proper quality controls at all times. That responsibility remained
              with the company and did not shift with the change in company management.
              The audit focused on the past quality control issues because they affected a
              specific group of loans approved during that period which posed an increased risk
              for losses to HUD. The focus on those loans was necessary to protect the
              Department from the risk of losses that could still result from the loans. In
              addition, the focus on the questioned loans was necessary to ensure that Prospect
              and not HUD is required to absorb losses that may result from the loans it
              approved under the past deficient quality control processes.

Comment 26 Prospect disagreed with the report concerning underwriter performance. It stated
           that the finding is based on hindsight and ignores the reality of when information
           became available on which to base an action. In essence, Prospect’s basic
           position was that the questioned underwriters no longer worked for the company
           by the time their high default rates began to show up for the loans they approved
           for Prospect. We revised the report to recognize Prospect’s position. However,
           we also revised the report to show that most of the underwriters already had high
           default rates with other lenders when they began to underwrite for Prospect. For
           instance, before being employed by Prospect, underwriters A, B, C, F, G, and H
           had default rates of 41.94 percent, 58.62 percent, 33.33 percent, 37.72 percent, 50
           percent, and 12.12 percent respectively. The personnel files for the underwriters
           did not contain documentation to explain why Prospect hired the underwriters
           who already had such high default rates. The underwriters repeated their high
           default pattern with the subsequent loans they underwrote for Prospect.




                                              68
            Appendix C - Page 1 of 2

                                                                          LOAN UNDERWRITING DEFICIENCY CHARTS
                                                                                                                                           Loans with deficiencies that affected insurability



                                                                                                                                                                                                             Gift funds not properly assessed
                Questionable or undocumented




                                                                                                                                            Inadequate assessment of cash


                                                                                                                                                                            Excessive seller contributions
                                                                              Income not properly assessed
                                               Credit not properly assessed



                                                                                                             Debts not properly assessed
                compensating factors




                                                                                                                                                                                                                                                         Total errors per loan

                                                                                                                                                                                                                                                                                 Underwriter
                                                                                                                                                                                                                                                                                                                    Unpaid                                 Funds to be
                                                                                                                                            assets




                                                                                                                                                                                                                                                 Other



                                                                                                                                                                                                                                                                                                                   Principal                                  put to
Case number                                                                                                                                                                                                                                                                                            Status      Balance      Ineligible   Unsupported    better use
105-3247562              x                                                                                                                                                    x                                x                                          3                        A                Claim-resold                  $92,522
381-8514681                                      x                              x                                 x                                  x                                                         x                                          5                        G                Claim-resold                  $88,746
105-3891745                                      x                              x                                 x                                  x                                                                                          x(1)      5                        A                Claim-resold                  $41,720
381-8594116                                                                     x                                 x                                  x                                                                                                    3                        G                Claim-resold                  $60,182
105-3387915              x                       x                                                                                                   x                                                                                          x(3)      4                        C                Claim-resold                  $61,156
                                                                                                                                                                                                                                                                                   G                                $108,890
381-8479987              x                       x                                                                                                   x                                                         x                                          4                                           Claim                                      $64,245
105-3365433              x                                                      x                                                                                                                              x                                          3                        A                  Claim         $124,947                     $73,719
105-3323949              x                                                      x                                                                    x                                                         x                                x(1)      4                        A                  Default       $201,217                                 $118,718
381-8578816              x                       x                              x                                                                    x                                                         x                                          5                        *                  Default       $168,136       $1,498                     $99,200
105-3353198                                      x                                                                                                   x                                                         x                                          3                        A                  Default       $182,973         $397                    $107,954
461-4313298              x                       x                              x                                                                                                                              x                                          4                       G                   Default       $175,120                                 $103,321
381-8867369                                      x                                                                x                                                                                                                             x(2)      3                        *                  Default       $143,253                                  $84,519
105-3405939              x                       x                                                                                                                                                             x                                          3                       A                   Default       $138,826                                  $81,907
105-4101563                                      x                                                                x                                  x                                                         x                                          4                       **                  Default       $126,217                                  $74,468
105-3720079              x                       x                                                                                                                                                                                                        2                        F                  Default       $355,731                                 $209,881
105-3535564              x                       x                                                                                                   x                                                         x                                x(1)      5                        A                Delinquent      $122,911         $736                     $72,517
105-3451957              x                                                                                                                                                                                     x                                          2                        A                Delinquent      $104,593                                  $61,710
461-4115484              x                       x                              x                                                                    x                                                         x                                          5                        G                  Current        $67,941                                  $40,085
381-8673508              x                       x                              x                                                                                                                              x                                x(1)      5                        G                  Current       $223,574         $645                    $131,909
381-8674809              x                       x                                                                x                                                                                            x                                          4                        G                  Current       $145,915     _______       ________       $86,090

   Totals            14                        15                               9                                 6                              11                           1                              15                                  6       77                                                        $2,390,244   $347,602        $137,964   $1,272,279

            * This loan was not underwritten by one of the high default underwriters who were the primary focus of the review.
            ** This loan was automated underwritten.

            x (1) – Housing cost understated
            x (2) – Questionable occupancy certification
            x (3) – Possible third-party verification




                                                                                                                                                                                                                                                                                               69
Appendix C - Page 2 of 2


                          Loans with less significant deficiencies

                               Inadequate
                               assessment           Gift funds not      Total
           Case number        of cash assets      properly assessed   violations   Underwriter
           105-3692606              X                     X               2            *
           105-3428714              X                     X               2            A
              Total                 2                      2              4
            *This loan was automated underwritten.

Not all errors pertaining to income, credit, or liabilities were considered material deficiencies.
Only those errors that could have changed the underwriting decision were considered material.
For instance, some errors in income or liabilities did not significantly affect the housing and debt
ratios.




                                                    70
Appendix D

INADEQUATE ASSESSMENT OF COMPENSATING FACTORS
          AND COLLECTION ACCOUNTS
                (Expanded Sample)

                            Deficiencies affected loan insurability

               Debt-
                 to-                                              Unpaid                       Funds to
              income     Closing      Loan                       Principal                     be put to
Case number     ratio      date       status    Underwriter      Balance *    Unsupported      better use   Notes
105-3440738     44.6     04/18/08    Claim          C            $109,646       $64,691                      a
105-3425304     46.0     01/25/08    Default        C            $217,785                      $128,493      b
105-3683691     43.7     04/22/08    Default        B            $137,195                       $80,945      c
105-3682405     44.7     05/12/08    Default        A            $102,329                       $60,374      d
381-8363464     47.8     02/21/08    Current        H            $257,841                      $152,126      e
    Total                                                        $824,797        $64,691       $421,938


*Amounts obtained from HUD’s Neighborhood Watch System.

              Audit Observation - While reviewing the initial loan origination sample, we identified a pattern of
              violations relative to inadequate support for compensating factors and inadequate consideration of
              derogatory credit indicated by unpaid collection accounts. As a result, we expanded our review to
              include additional loans to look specifically for compliance with requirements for compensating
              factors and the consideration of collection accounts during the underwriting process. We randomly
              selected 10 loans for review from a universe of 60 manually underwritten loans that defaulted
              during our review period and which had debt-to-income ratios the exceeded HUD’s 43 percent
              benchmark (Mortgagee Letter 2005-16). The expanded review identified violations similar to those
              identified in our initial loan origination sample. Specifically, Prospect did not properly use
              supported and/or valid compensating factors and/or properly assess collection for five, or 50
              percent, of the expanded sample loans. Due to the high sample error rate, we suspect that additional
              violations similar to those discussed in our original sample and below, for the expanded sample,
              also occurred for an undetermined number of the 50 defaulted loans we did not examine, which had
              debt-to-income ratios that exceeded HUD’s 43 percent benchmark.

              HUD Handbook 4155.1, REV-5, paragraph 2-13, provides compensating factors that may be used to
              justify approval of mortgage loans with ratios above the benchmark guidelines and provides that the
              factor used to justify mortgage approval must be supported by documentation. See appendix F for a
              listing of the factors.

   Notes
    A         Compensating factors - Prospect approved the high 44.6 debt-to-income ratio loan based primarily
              on an unsupported compensating factor which claimed that the borrower had 5 months of reserves.
              The file contained bank statements which showed that the borrower had $5,000 on deposit
              approximately 2 months before closing. The majority of that deposit was attributed to tax refund
              checks. HUD requires that for cash reserves to be accepted as a compensating factor, they must be
              documented after closing. The loan file contained no support showing that the borrower still had



                                                      71
    those funds after closing. Prospect also explained that the borrower had taken a first-time home
    buyers class but that was not listed as a valid compensating factor in HUD’s requirements. Prospect
    also noted that the borrower had good job stability. Job stability was a separate qualifying factor
    and it was not valid as a separate factor to justify approving a loan with a debt-to-income ratio that
    exceeded HUD’s 43 percent benchmark. HUD Handbook 4155.1, REV-5, paragraph 2-13 (G),
    provides that the borrower must have substantial documented cash reserves (at least three months’
    worth) after closing in order for the cash reserves factor to be used.

    Collection accounts - Prospect did not document why it approved the loan for this borrower, who
    had more than $11,200 in unpaid collections and charge-offs. The total unpaid obligations included
    $182 for 1 account that was less than 2 years old and $11,019 for 12 accounts that were more than 2
    years old. HUD does not require collection accounts to be paid to approve a loan. However, HUD
    does require lenders to consider borrowers’ past credit performance because it serves as the most
    useful guide in determining the borrower’s attitude toward credit obligations and predicting a
    borrower’s future actions. The borrower’s failure to pay or to arrange to pay the collection accounts
    reflected a disregard for the otherwise legitimate credit obligations. HUD Handbook 4155.1 REV-
    5, paragraph 2-3 (C), states that court-ordered judgments must be paid off before the mortgage loan
    is eligible for FHA insurance endorsement but the FHA does not require that collection accounts be
    paid off as a condition of mortgage approval.
B   Compensating factors - Prospect approved the high 46 percent debt-to-income ratio loan based on
    an unsupported compensating factor, which claimed that the borrower had reserves. HUD requires
    a 3-month reserve level, but the borrower’s bank statements showed that he had less than 2 months
    in reserves. Prospect also stated that the property was new construction and that the borrower had
    taken a first-time home buyers class. However, the class was not listed among the acceptable
    compensating factors that HUD allows. HUD Handbook 4155.1, REV-5, paragraph, 2-13 (G),
    provides that the borrower must have substantial documented cash reserves (at least three months’
    worth) after closing in order for the cash reserves factor to be used.

C   Compensating factors - Prospect approved the high 43.7 percent debt-to-income ratio loan based on
    an invalid compensating factor, which claimed that the borrower would have a similar housing
    expense. This was not a valid compensating factor, because the borrower’s monthly housing
    expense went from $894 to $1,112, an increase of more than $200. Further, the borrower’s credit
    history indicated that she had difficulty paying obligations, even at the lower housing expense.
    Prospect also stated that the borrower had excellent job history. Job stability was a separate
    qualifying factor, and it was not valid as a separate factor to justify approving a loan with a debt-to-
    income ratio that exceeded HUD’s 43 percent benchmark.

    Collection accounts - Prospect did not document why it approved the loan for the borrower, who
    had more than $27,000 in unpaid collections and charge-offs. The total unpaid obligations included
    $12,915 for two accounts that were less than 2 years old and $14,194 for four accounts that were
    more than 2 years old. HUD does not require collection accounts to be paid for a lender to approve
    a loan. However, HUD does require lenders to consider borrowers’ past credit performance because
    it serves as the most useful guide in determining the borrower’s attitude toward credit obligations
    and predicting a borrower’s future actions. The borrower’s failure to pay or to arrange to pay the
    collection accounts reflected a disregard for the otherwise legitimate credit obligations. HUD
    Handbook 4155.1 REV-5, paragraph 2-3 (C), states that court-ordered judgments must be paid off
    before the mortgage loan is eligible for FHA insurance endorsement but the FHA does not require
    that collection accounts be paid off as a condition of mortgage approval.




                                              72
D   Compensating factors - Prospect approved the high 44.7 percent debt-to-income ratio loan based on
    an invalid compensating factor, which claimed that the borrower had a minimal housing expense
    increase. We determined that the borrower’s housing expense went up more than 20 percent, which
    brought the borrower’s front ratio up to 40.9, or more than 9 percent higher than the 31 percent
    benchmark allowed by HUD. Prospect also stated that the borrower was a minimal debt user, but
    that compensating factor was not consistent with the borrower’s derogatory credit history.
    Mortgagee Letter 2005-16 increased the front ratio to 31 percent and the back ratio to 43 percent for
    manually underwritten mortgages by direct endorsement underwriters. The letter further provided
    that if either or both ratios are exceeded, the lender must describe the compensating factors used to
    justify mortgage approval.

    Collection accounts - Prospect did not document why it approved the loan for the borrower who had
    more than $8,300 in unpaid collections and charge-offs. The total unpaid obligations included
    $3,857 for four accounts that were 2 years old and $4,489 for six accounts that were more than 2
    years old. HUD does not require collection accounts to be paid to approve the loan. However,
    HUD does require lenders to consider borrowers’ past credit performance because it serves as the
    most useful guide in determining the borrower’s attitude toward credit obligations and predicting a
    borrower’s future actions. The borrower’s failure to pay or to arrange to pay the collection accounts
    reflected a disregard for the otherwise legitimate credit obligations. Prospect did not document
    compensating factors to justify why it approved the loan despite the derogatory credit indicated by
    the collection accounts. HUD Handbook 4155.1 REV-5, paragraph 2-3 (C), states that court-
    ordered judgments must be paid off before the mortgage loan is eligible for FHA insurance
    endorsement but the FHA does not require that collection accounts be paid off as a condition of
    mortgage approval.

E   Compensating factors - Prospect approved the high 47.8 percent debt-to-income ratio loan based on
    an invalid compensating factor, which claimed that the borrower had overtime pay that was not
    included in its credit analysis. We assessed the additional income and determined that if it was
    factored into the assessment, it would only reduce the debt-to-income ratio from 47.8 to 47.1.
    Prospect also noted that the borrower was a conservative user of credit. We did not find adequate
    support for that claim, considering that the credit report showed that the borrower owed more than
    $27,000.




                                             73
Appendix E

                        CASE STUDIES OF IMPROPERLY
                           UNDERWRITTEN LOANS

FHA case number:                       105-3247562
Loan purpose:                          Purchase
Underwriter type:                      Manually underwritten
Closing date:                          March 21, 2008
Loan amount:                           $138,344
Debt-to-income ratio:                  46.50 percent
Status:                                Claim and resold with a $92,522 loss to HUD
Default reason:                        Unknown - Unable to contact borrower

Questionable or Undocumented Compensating Factors

Prospect approved the high 46.50 percent debt-to-income ratio loan based on invalid
compensating factors. We reviewed the loan file for other possible compensating factors but did
not identify any. Prospect cited the following compensating factors:

       Job stability – Job stability is a factor lenders should consider when assessing a
       borrower’s overall qualification for the loan, but it is not a factor HUD allows to justify
       approving a loan with a debt-to-income ratio that exceeds HUD’s benchmark.

       Cash reserves – Prospect calculated reserves totaling $8,409, but the amount we
       calculated amounted to only $2,319, which was less than HUD’s 3-month requirement to
       be considered a compensating factor. We could not determine how Prospect calculated
       the amount it showed as reserves. Our calculation included the following amounts
       documented in the loan file that had balances that were appropriate to be included in the
       reserve calculation.

                            Earnest money deposit              $     500
                            Gift                                   7,399
                            Assets available:
                              Savings                                137
                              Money market account                   517
                              Roth IRA*                            1,165
                            Total                              $ 9,718
                            Less: total cash to close          $ (7,399)
                            Reserve amount                     $ 2,319
                          *individual retirement account

       The reserves we calculated were $952 short of the 3-month reserve level that HUD
       required to count reserves as a compensating factor. Our calculation excludes a thrift
       savings plan (TSP) retirement account that lacked liquidity because the borrower made a

                                                   74
       $4,050 hardship withdrawal from the account within 1 month of closing, coupled with an
       existing loan from the account that had a $3,639 balance. The TSP requirements would
       not allow the borrower to obtain another loan until 60 days after the loan was paid off and
       allowed no further withdrawal for 6 months from the date of the last payment.

       Additional income from rental property – This compensating factor was not valid
       because, as discussed below, the property was damaged by Hurricane Katrina, needed to
       be renovated, and was not under lease. The file contained no documentation to support
       when the repairs would be complete and the property would be available for rent.
       Prospect stated that the borrower received insurance funds to repair the rental property,
       but the file did not support that claim. The file showed that the borrower had applied for
       funds to renovate the property and had obtained conditional approval for a loan in
       September 2007. However, the loan had not been granted when the borrower closed on
       the HUD loan more than 6 months later. Thus, the file did not document that the
       borrower had the funds needed to repair the property so that it could be rented to earn the
       income Prospect claimed as a compensating factor. The borrower defaulted after making
       only one payment on the loan.

HUD Requirements

Mortgagee Letter 2005-16 increased the front ratio to 31 percent and the back ratio to 43 percent
for manually underwritten mortgages by direct endorsement underwriters. The letter further
provided that if either or both ratios are exceeded, the lender must describe the compensating
factors used to justify mortgage approval. HUD Handbook 4155.1, REV-5, paragraph 2-6,
provides requirements lenders are to follow to assess job stability. HUD Handbook 4155.1,
REV-5, paragraph 2-13, provides compensating factors that may be used to justify approval of
mortgage loans with ratios above the benchmark guidelines. A compensating factor used to
justify mortgage approval must be supported by documentation. Paragraph 2-13 (G) provides
that the borrower must have substantial documented cash reserves (at least three months’ worth)
after closing in order for the cash reserves factor to be used.

Excessive Seller Contributions

Prospect did not identify that the seller, a quasi-public corporation, exceeded HUD’s 6 percent
contribution requirement by $4,979. The excess represents the difference between the seller’s
$13,613 contribution to the borrower’s closing cost and gift (discussed below) and the $8,634
limit based on 6 percent of the property’s sales price. The excess contribution should have been
but was not treated as an inducement to purchase with a write-down of the mortgage by the
amount of the excess contribution.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 1-7(A), states that the seller may contribute up to 6
percent of the property’s sales price toward the buyer’s actual closing costs, prepaid expenses,
discount points, and other financing concessions. Contributions exceeding 6 percent of the sales
price or exceeding the actual cost of prepaid expenses, discounts points, and other financing



                                               75
concessions will be treated as inducements to purchase, thereby reducing the amount of the
mortgage.

Gift Funds Not Properly Assessed

The file showed that the seller, a quasi-public corporation, inappropriately paid a $7,399 gift on
behalf of the borrower. The gift was included in the $13,613 seller contribution discussed above.
As a result, Prospect allowed the loan to close without the borrower’s providing a downpayment
from his own funds or from another appropriate source.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), Gift Funds, provides that the gift donor may
not be a person or entity with an interest in the sale of the property, such as the seller, real estate
agent or broker, builder, or any entity associated with them. Gifts from these sources are
considered inducements to purchase and must be subtracted from the sales price. This rule also
applies to properties of which the seller is a government agency selling foreclosed-upon
properties.




                                                  76
FHA case number:                     381-8514681
Loan purpose:                        Purchase
Underwriter type:                    Manually underwritten
Closing date:                        May 2, 2008
Loan amount:                         $124,019
Debt-to-income ratio:                46.75 percent
Status:                              Claim and resold with a $88,746 loss to HUD
Default reason:                      Curtailment of income

Credit Not Properly Assessed

Prospect approved the loan despite the borrower’s recent history of derogatory credit. The credit
report showed that the borrower owed $6,670 for nine accounts, which consisted of eight that
were in collection ($6,588), mostly for medical bills, and one that was charged off ($82). The
borrower was responsible for paying the collection and the charged-off amounts but had not done
so. The unpaid collection accounts included $5,974 for six accounts that were less than 1 year
old and $696 for three accounts that were more than 1 year old at the time when Prospect closed
the HUD loan. The borrower did not adequately explain why he had not paid or arranged to pay
each of the collection and charged-off accounts. The unpaid obligations indicated that the
borrower had a recent and ongoing problem paying those bills. We recognize that HUD does not
require collections accounts to be paid to approve a loan. Prospect should have documented
compensating factors to justify why it approved the loan. Also, Prospect did not document the
required analysis to determine whether the collection accounts were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.

In addition, the file showed that the borrower went from paying $600 per month for rent to a
$901 per month mortgage payment. The increase was significant considering the borrower’s
recent credit problem and his inability to accumulate savings at the lower housing cost.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions. If the credit history, despite adequate income to support obligations,
reflects continuous slow payments, judgments, and delinquent accounts, strong compensating
factors will be necessary to approve the loan. When delinquent accounts are revealed, the lender
must document its analysis as to whether the late payments were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.
Paragraph 2-3 (C), states that court-ordered judgments must be paid off before the mortgage loan
is eligible for FHA insurance endorsement but the FHA does not require that collection accounts
be paid off as a condition of mortgage approval.

Income Not Properly Assessed

Prospect overstated the borrower’s overtime pay by at least $331 per month. The overstatement
occurred because Prospect included overtime pay in its calculation of the borrower’s effective
income, although the amount was earned for only 6 months. HUD requires that overtime be

                                                77
averaged over a 2-year period, but it allows periods of less than 2 years if the lender documents
in writing a reason for using the shorter period. Prospect did not document the file to justify why
it allowed the overtime. Based on our overtime calculation and the omitted debt discussed
below, the borrower’s debt-to-income ratio increased from the 38.11 percent rate that Prospect
calculated to 46.75 percent. If overtime income were excluded, due to the short 6-month earning
period, the borrower’s debt-to-income ratio would increase to 52.29 percent.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-7(A), provides that overtime income may be used
to qualify if the borrower has received such income for the past 2 years and it is likely to
continue. The lender must develop an average of overtime income for the past 2 years, and the
employment verification must not state that such income is unlikely to continue. Periods of less
than 2 years may be acceptable, provided the lender justifies and documents in writing the reason
for using the income for qualifying purposes. Paragraph 2-6 provides that HUD does not impose
a minimum length of time a borrower must have held a position of employment to be eligible.
However, the lender must verify the borrower’s employment for the most recent 2 full years.
The borrower also must explain gaps in employment spanning 1 month or more.

Debts Not Properly Assessed

Prospect understated the debts it used to calculate the 38.11 percent debt-to-income ratio that it
used to approve the loan. The mortgage credit analysis worksheet showed that the borrower had
no monthly debt in addition to the monthly mortgage payment. However, the file showed that
the borrower was paying $50 per month toward a $10,577 medical bill. Adjustment for the
omitted debt and the incorrect income calculation discussed above increased the debt-to-income
ratio to 46.75 percent. The increased ratio exceeded HUD’s 43 percent benchmark (Mortgagee
Letter 2005-16).

HUD Requirements

Handbook 4155.1, REV 5, paragraph 2-11(A), provides that in computing the debt-to-income
ratios, the lender must include the monthly housing expense and all additional recurring charges
extending 10 months or more. Debts lasting less than 10 months must be counted if the amount
of the debt affects the borrower’s ability to make the mortgage payment during the months
immediately after loan closing.

Inadequate Assessment of Cash Assets

Prospect allowed the loan to close based on an incorrect HUD -1 settlement statement that
understated the borrower’s investment in the property. The statement understated the property
tax amount that was due from the seller, and it incorrectly reported the seller’s pro rata tax
charge in the section of the statement that was reserved to report amounts that were due from the
borrower. As a result, the statement showed that no cash was due to or from the borrower when,
based on the numbers shown on the statement, the borrower was due a $427 refund.




                                                78
                                                              According
                                                                to the
                                                              settlement         OIG            According
                                                              statement       adjustment         To OIG
       Gross amount due from borrower:
       A. Contract sales price                                  $125,000                          $125,000
       B. Settlement charges to borrower                           2,571           -                  2,571
       C. Seller portion of property taxes                         19810               $(198)       -
       D. Gross amount due from borrower                        $127,769                          $127,571

       Amounts paid by or on behalf of the borrower:
       E. Principal amount of new loan                          $124,019                          $124,019
       F. Nonprofit gift                                            3,750                            3,750
       G. Seller portion of property taxes                        -                     $229           229
       H. Total paid by/for borrower                            $127,769                           127,998

       Cash to borrower (item D minus H)                           -                                ($427)

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 1-7, provides that the borrower must make a cash
investment that is at least equal to the difference between the sales price and the resulting
maximum mortgage amount but that the cash investment must equal at least 3 percent of the
contract sales price.

Gift Funds Not Properly Assessed

Prospect’s file contained no documentation showing that it verified the receipt of the $3,750 in
gift funds. Thus, Prospect allowed the loan to close without confirming that the closing agent
received the nonprofit gift used to pay the borrower’s required investment in the property. The
HUD -1 settlement statement showed that the gift was paid. The missing document was required
to provide assurance that the gift was paid by the nonprofit organization and not by some other
interested party to the loan transaction.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds are not
deposited into the borrower’s account before closing, the lender must obtain verification that the
closing agent received funds from the donor for the amount of the gift.




10
  The settlement statement showed that the seller owed taxes for 4 months and that the borrower owed taxes for 8
months. The statement showed that the borrower’s share of taxes was $458 figured at $57.19 per month for 8
months. The statement only showed $198 for the taxes owed by the seller for the 4-month period, although the
actual amount calculated to $229 (4 months x $57.19). Thus, the $198 shown on the statement for seller taxes was
understated, and it was shown in the wrong section of the statement.

                                                       79
FHA case number:                      105-3891745
Loan purpose:                         Purchase
Underwriter type:                     Manually underwritten
Closing date:                         July 21, 2008
Loan amount:                          $71,633
Debt-to-income ratio:                 46.01 percent
Status:                               Claim and resold with a $41,720 loss to HUD
Default reason:                       Curtailment of income

Credit Not Properly Assessed

Prospect approved the loan despite the borrower’s recent credit problems while she lived rent
free with her mother and was unable to accumulate savings. The borrower went from paying no
rent to a $678 per month mortgage payment. The credit report showed that the borrower owed
more than $14,000 on four collection accounts opened between December 2002 and October
2007. The most recent collection was a $153 medical account opened in October 2007, just 10
months before Prospect approved the loan. The borrower stated that one account, with a balance
of more than $13,000, occurred because she lost her job. The borrower did not explain why she
had not arranged to pay the account. The credit report also showed that in January, February,
November, and December 2007, the borrower made late payments on an installment loan. The
underwriting finding showed that the case was referred for manual underwriting because it
exceeded the risk threshold for automated approval. Prospect did not document legitimate
compensating factors for its decision to approve the loan.

We recognize that HUD does not require collections accounts to be paid to approve a loan.
Prospect should have documented compensating factors to justify why it approved the loan.
Also, Prospect did not document the required analysis to determine whether the collection
accounts were based on a disregard for financial obligations, an inability to manage debt, or
factors beyond the control of the borrower.

Prospect did not agree with our assessment, but it provided no information that warranted a
revision to our conclusion.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions. If the credit history, despite adequate income to support obligations,
reflects continuous slow payments, judgments, and delinquent accounts, strong compensating
factors will be necessary to approve the loan. When delinquent accounts are revealed, the lender
must document its analysis as to whether the late payments were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.




                                                80
Income Not Properly Assessed

Prospect did not adequately assess the stability of the borrower’s income. Within 3 years before
the loan closed, the borrower worked in different lines of work with four different companies,
coupled with gaps in employment of more than 30 days. Prospect did not follow up or document
its follow-up to clarify the gaps in employment, and it did not verify whether the borrower’s
most recent employment was likely to continue. Prospect’s quality control review showed that
the borrower was no longer employed by the employer she worked for at the time it approved the
loan. Neighborhood Watch showed that the loan went into default due to a curtailment in
income. This condition was consistent with the borrower’s unstable work history.

HUD Requirements

HUD Handbook 4155.1, REV-5, section 2, provides that income may not be used in calculating
the borrower’s income ratios if it comes from a source that cannot be verified, is not stable, or
will not continue. Paragraph 2-6 provides that HUD does not impose a minimum length of time
a borrower must have held a position of employment to be eligible. However, the lender must
verify the borrower’s employment for the most recent two full years. The borrower also must
explain gaps in employment spanning 1 month or more.

Debts Not Properly Assessed

Prospect understated the borrower’s obligations by $20 because it understated the monthly
payment for a $548 installment loan.

HUD Requirements

Handbook 4155.1, REV 5, paragraph 2-11(A), provides that in computing the debt-to-income
ratios, the lender must include the monthly housing expense and all additional recurring charges
extending 10 months or more. Debts lasting less than 10 months must be counted if the amount
of debt affects the borrower’s ability to make the mortgage payment during the months
immediately after loan closing.

Inadequate Assessment of Cash Assets

The borrower’s bank statement showed a recent $500 unexplained deposit, which was the exact
amount of the earnest money payment made 10 days later. The deposit was not consistent with
the borrower’s deposit pattern shown on the bank statement. We also noted that the check for
the earnest money deposit was paid to a realtor, who was not the same realtor shown on the sales
contract and the HUD -1 settlement statement. Prospect did not obtain a credible explanation for
the source of the deposit, nor did it document follow-up to determine why the deposit was not
paid to the seller or the realtor who handled the sale.

Prospect disagreed with our position, stating that the deposit was not a large one and that it was
not inconsistent with other deposits made to the borrower’s account. We disagree. The
automatic teller deposit was from an unexplained source that was different from the usual payroll
deposits made to the account.

                                                81
HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(A), provides that if the amount of the earnest
money deposit appears excessive, based on the borrower’s history of accumulating savings, the
lender must verify with documentation the deposit amount and the source of funds used for the
earnest money deposit.

Other - Understated Liabilities (Housing Cost)

Prospect understated the borrower’s monthly housing insurance and taxes by $55. We used the
insurance amount reflected on the HUD -1 settlement statement. The understatement contributed
to the borrower’s high 46.01 percent debt-to-income ratio.

HUD Requirements

HUD Handbook 4155.1, REV 5, paragraph 2-11(A), provides that in computing the debt-to-
income ratios, the lender must include the monthly housing expense and all additional recurring
charges extending 10 months or more.




                                                 82
FHA case number:                      381-8594116
Loan purpose:                         Refinance
Underwriter type:                     Manually underwritten
Closing date:                         June 27, 2008
Loan amount:                          $166,815
Debt-to-income ratio:                 58.40 percent
Status:                               Claim and resold with a $60,182 loss to HUD
Default reason:                       Curtailment of income

Income Not Properly Assessed

Prospect approved the loan based on regular and overtime pay that it did not verify as likely to
continue and without obtaining a written explanation from the borrower for a 3-month gap in
employment. The file contained no documentation to support that Prospect followed up to
determine the likelihood of the borrower’s continued employment and overtime pay. HUD does
not allow the inclusion of income from a source that cannot be verified, is not stable, or will not
continue. As a result, Prospect approved the loan at a high 52.56 debt-to-income ratio using
overtime pay that was not allowed to be counted as effective income.

       Regular and overtime pay was not verified as likely to continue – The employer did not
       complete the section on the verification of employment to indicate the probability of the
       borrower’s continued employment and wrote “unknown” in the section reserved for
       verification of the likelihood that overtime would continue. The file showed that the
       borrower had been employed at the position for less than 7 months.

       Overtime pay – Prospect included overtime pay in its calculation of the borrower’s
       effective income, although the amount was earned for only 7 months, whereas HUD
       requires a 2-year period. HUD may allow a shorter period, provided the lender justifies
       and documents in writing the reason for using the income for qualifying purposes.
       Prospect did not provide this type of documentation and did not verify that the overtime
       was likely to continue. We did not exclude the overtime from the debt-to-income ratio
       calculation, but if it were excluded, the ratio would increase to 72.99 percent after
       factoring in the omitted debts discussed below.

       Prospect stated that inclusion of the overtime was justified because the borrower had
       been employed continuously in the same line of work for more than 2 years and regularly
       received overtime during the entire period. The file showed that the borrower was not
       continuously employed in the same line of work. He went from a position as a cable
       installer with a telephone company to working for a biotherapeutics company. Also, as
       discussed below, there was a 3-month gap in employment.

       Gap in employment not explained – Prospect did not obtain documentation to explain a
       3-month gap in the borrower’s employment from August through November 2007.
       Prospect was required to obtain an explanation from the borrower for the 3-month gap in
       employment.




                                                83
HUD Requirements

HUD Handbook 4155.1, REV-5, section 2, provides that the anticipated amount of income and
the likelihood of its continuance must be established to determine a borrower’s capacity to repay
mortgage debt. Income may not be used in calculating the borrower’s income ratios if it comes
from a source that cannot be verified, is not stable, or will not continue. Paragraph 2-7(A)
provides that overtime income may be used to qualify if the borrower has received such income
for the past 2 years and it is likely to continue. The lender must develop an average of overtime
income for the past 2 years, and the employment verification must not state that such income is
unlikely to continue. Periods of less than 2 years may be acceptable, provided the lender justifies
and documents in writing the reason for using the income for qualifying purposes. Paragraph 2-6
provides that HUD does not impose a minimum length of time a borrower must have held a
position of employment to be eligible. However, the lender must verify the borrower’s
employment for the most recent 2 full years. The borrower also must explain gaps in
employment spanning 1 month or more.

Debts Not Properly Assessed

Prospect understated the borrower’s debts by $219 per month. The understatement occurred
because Prospect omitted one debt and understated the monthly payments for two other debts.
The omitted debt had a $191 monthly payment, but it had less than 10 months remaining on the
loan. In view of the high debt-to-income ratio, we believe that the debt would have affected the
borrower’s ability to make mortgage payments during the months immediately after the loan
closed. Prospect did not agree with this assessment. The two understated debts included one
account for which Prospect used $23 less than the credit report showed and another account for
which it used $5 less than the credit report showed. The understated liabilities increased the
borrower’s already high 52.56 percent debt-to-income ratio that Prospect calculated to 58.40
percent.

HUD Requirements

HUD Handbook 4155.1, REV 5, paragraph 2-11(A), provides that in computing the debt-to-
income ratios, the lender must include the monthly housing expense and all additional recurring
charges extending 10 months or more. Debts lasting less than 10 months must be counted if the
amount of the debt affects the borrower’s ability to make the mortgage payment during the
months immediately after loan closing.

Inadequate Assessment of Cash Assets

Prospect did not itemize the costs paid by its premium pricing contribution11. The good faith
estimate and the HUD -1 settlement statement did not itemize the specific borrower closing costs
paid by the $175 premium pricing contribution Prospect made on behalf of the borrower at
closing. Prospect was required to itemize the cost paid by the contribution versus stating the
amount as a lump sum.

11
   Premium pricing refers to contributions made by the lender at closing to pay a portion of a borrower’s closing
costs.

                                                         84
HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 1-9(J) provides that lenders may pay the borrower’s
allowable closing costs and/or prepaid items by premium pricing. The good faith estimate and
the HUD -1 settlement statement must include an itemized statement indicating which items are
being paid on the borrower’s behalf; disclosing only a lump sum is not acceptable.




                                              85
FHA case number:                     105-3387915
Loan purpose:                        Purchase
Underwriter type:                    Manually underwritten
Closing date:                        January 14, 2008
Loan amount:                         $204,874
Debt-to-income ratio:                48.27 percent
Status:                              Claim and resold with a $61,156 loss to HUD
Default reason:                      Curtailment of income

Questionable or Undocumented Compensating Factors

Prospect claimed four invalid compensating factors to justify its approval of the 48.27 percent
debt-to-income ratio loan.

       The borrower received documented income from his spouse that was not reflected in
       effective income – This was not a valid factor because the borrower’s spouse was not a
       party to the loan and she was not employed when Prospect approved the loan.

       The borrower’s spouse would be returning to work soon and had a history of employment
       in the same line of work – The file did not document support for this compensating
       factor. Prospect claimed that this was a valid compensating factor because the spouse
       had a history of working and provided evidence that she would be starting a new job
       soon. The file contained no evidence to support the spouse’s prior work history, nor did
       it contain support showing that the spouse had received a job offer. The only support for
       Prospect’s claim was a December 27, 2007, letter from the borrower, which stated that
       his wife would began work on January 28, 2008. The company she was to work for had a
       name that was similar to that of the seller. Prospect did not verify the job offer.

       Tax benefit to home ownership – Tax benefits were not listed as a valid compensating
       factor in HUD’s requirements.

       The borrower had the potential for increased earnings – The file contained inadequate
       documentation to support the compensating factor including, as discussed below,
       Prospect’s failure to independently verify the borrower’s income.

HUD Requirements

Mortgagee Letter 2005-16 increased the front ratio to 31 percent and the back ratio to 43 percent
for manually underwritten mortgages by direct endorsement underwriters. The letter further
provided that if either or both ratios are exceeded, the lender must describe the compensating
factors used to justify mortgage approval. HUD Handbook 4155.1, REV-5, paragraph 2-13,
provides compensating factors that may be used to justify approval of mortgage loans with ratios
above the benchmark guidelines. A compensating factor used to justify mortgage approval must
be supported by documentation.




                                                86
Credit Not Properly Assessed

Prospect approved the loan despite the borrower’s recent history of derogatory credit. The
underwriting finding showed that the case was referred for manual underwriting because it
exceeded the risk threshold for automated approval. The credit report showed that when
Prospect approved the loan, the borrower owed more than $2,700 for accounts that were in
collection ($2,090) or charged off ($658). The borrower was responsible for paying the charge-
off amounts but had not done so. The total unpaid obligations included $1,194 for three accounts
that were less than 1 year old and $1,554 for two accounts that were more than 2 years old. The
unpaid obligations indicated that the borrower had a recurring problem managing debts
following a bankruptcy that was discharged in September 2003. The file showed that the
borrower was going from paying $1,000 per month for rent to a $1,612 per month mortgage
payment. The increased payment for housing cost was significant for a borrower with
derogatory credit who already had a problem paying his debts.

We recognize that HUD does not require collections accounts to be paid to approve a loan.
Prospect should have documented compensating factors to justify why it approved the loan.
Also, Prospect did not document the required analysis to determine whether the collection
accounts were based on a disregard for financial obligations, an inability to manage debt, or
factors beyond the control of the borrower.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions. If the credit history, despite adequate income to support obligations,
reflects continuous slow payments, judgments, and delinquent accounts, strong compensating
factors will be necessary to approve the loan. When delinquent accounts are revealed, the lender
must document its analysis as to whether the late payments were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.

Inadequate Assessment of Cash Assets

Prospect understated the borrower’s minimum downpayment for the property and did not itemize
the cost paid by its premium pricing contribution.

       Minimum downpayment understated – Prospect understated the borrower’s minimum
       downpayment on the mortgage credit analysis worksheet by $516 because the estimates it
       used to calculate the amount were substantially lower than the amounts shown on the
       HUD -1 settlement statement. The incorrect calculation caused HUD to overinsure the
       mortgage by $516. The borrower defaulted on the mortgage, and HUD has paid the
       insurance claim on the loan. Therefore, Prospect should reimburse HUD for the excess
       mortgage amount plus interest from the time the loan closed to the date HUD paid the
       claim.

       Premium pricing contribution – The good faith estimate and the HUD -1 settlement
       statement did not itemize the specific borrower closing costs paid by the $1,000 premium

                                                87
       pricing contribution Prospect made on behalf of the borrower at closing. Prospect was
       required to itemize the cost paid by the contribution versus stating the amount as a lump
       sum.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 1-7, provides that the borrower must make a cash
investment that is at least equal to the difference between the sales price and the resulting
maximum mortgage amount but that the cash investment must equal at least 3 percent of the
contract sales price. Paragraph 2-10(A) provides that if the amount of the earnest money deposit
appears excessive, based on the borrower’s history of accumulating savings, the lender must
verify with documentation the deposit amount and the source of funds used for the earnest
money deposit. Paragraph 1-9(J) provides that lenders may pay the borrower’s allowable closing
costs and/or prepaid items by premium pricing. The good faith estimate and the HUD -1
settlement statement must include an itemized statement indicating which items are being paid
on the borrower’s behalf; disclosing only a lump sum is not acceptable.

Other - Possible Third-Party Verification

The file did not contain support needed to show that Prospect properly verified the borrower’s
employment. The employment verification contained in the file was addressed to the seller, and
it contained language indicating that the borrower had the probability for continued employment.
However, the file contained no information to show how Prospect obtained the verification.
Prospect disagreed with our assessment and stated that it completed a verbal verification of the
borrower’s employment. The loan file did not contain a record of the verbal verification. We
tried to contact the employer, but the telephone number for the employer was disconnected.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-7, provides that the income of each borrower to be
obligated for the mortgage debt must be analyzed to determine whether it can reasonably be
expected to continue through at least the first 3 years of the mortgage loan. Paragraph 3-1
provides that lenders may not accept or use documents relating to the credit, employment or
income of borrowers that are handled by or transmitted from or through interested third parties
(e.g., real estate agents, builders, sellers) or by using their equipment.




                                               88
FHA case number:                      381-8479987
Loan purpose:                         Construct new home
Underwriter type:                     Manually underwritten
Closing date:                         July 22, 2008
Loan amount:                          $110,129
Debt-to-income ratio:                 51.20 percent
Status:                               Claim paid, $64,927
Default reason:                       Unemployment

Questionable or Undocumented Compensating Factors

Prospect approved the high 51.20 percent debt-to-income ratio loan based on two invalid
compensating factors:

       Low payment shock – Prospect’s claim that the borrower had a low payment shock was
       not supported. The borrower’s monthly housing cost for the HUD-insured loan was 63
       percent higher than her previous housing cost.

       Recent child support increase – The file contained no documentation to support that the
       borrower had received a recent increase in child support.

We reviewed the loan file for other allowable compensating factors but did not identify any.

HUD Requirements

Mortgagee Letter 2005-16 increased the front ratio to 31 percent and the back ratio to 43 percent
for manually underwritten mortgages by direct endorsement underwriters. The letter further
provided that if either or both ratios are exceeded, the lender must describe the compensating
factors used to justify mortgage approval. HUD Handbook 4155.1, REV-5, paragraph 2-13,
provides compensating factors that may be used to justify approval of mortgage loans with ratios
above the benchmark guidelines. A compensating factor used to justify mortgage approval must
be supported by documentation.

Credit Not Properly Assessed

Prospect approved the loan, although the credit report showed that the borrower owed more than
$1,290 for a collection account that was 8 years old and had not arranged to pay it. The file
contained no documentation from the borrower disputing responsibility for the account. We
recognize that HUD does not require collections accounts to be paid to approve a loan. Prospect
should have documented compensating factors to justify why it approved the loan. Also,
Prospect did not document the required analysis to determine whether the collection accounts
were based on a disregard for financial obligations, an inability to manage debt, or factors
beyond the control of the borrower.

Prospect did not agree with our assessment because the collection account was old and the
borrower had reestablished good credit since that time. Prospect did not provide the required
analysis to determine whether the collection resulted from a disregard for financial obligations.

                                                89
HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions. If the credit history, despite adequate income to support obligations,
reflects continuous slow payments, judgments, and delinquent accounts, strong compensating
factors will be necessary to approve the loan. When delinquent accounts are revealed, the lender
must document its analysis as to whether the late payments were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.

Inadequate Assessment of Cash Assets

Prospect allowed the loan to close without requiring the borrower to make the required minimum
downpayment and without properly verifying the source of borrower funds.

       Minimum downpayment not made – Prospect allowed the loan to close without requiring
       the borrower to make the minimum downpayment. Prospect calculated the minimum
       downpayment to be $4,584, but the settlement statement supported a downpayment of
       only $3,330, or $1,254 less than the calculated amount. We calculated the minimum
       downpayment to be $4,145, which reflected an $815 underpayment.

                                                             According     According to
                                                             to Prospect      OIG
          Required downpayment                                    $4,584          $4,145

          Less: funds provided by or for borrower
                gift amount (the only borrower funds paid)      ($3,330)        ($3,330)

          Shortfall in borrower downpayment                       $1,254           $815

       We did not give the borrower credit for $1,055, which the settlement statement showed
       was paid outside closing due to questionable support, which is discussed below.

       Inadequate verification of funds paid outside closing – Prospect did not verify or
       document that it verified the source of $1,055 for hazard insurance, an inspection fee, and
       the appraisal, which the HUD -1 settlement statement showed was paid outside closing.
       The file contained no documentation to support that the borrower had the funds needed to
       pay the cost. The settlement statement and the loan file did not document who paid the
       costs which we attributed to the borrower. The file did not include bank statements for
       the borrower or other documentation to support that the borrower had the funds to pay the
       cost. If the seller paid the amounts, it would have further increased the inducement to
       purchase discussed below.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 1-7, provides that the borrower must make a cash
investment that is at least equal to the difference between the sales price and the resulting
maximum mortgage amount but that the cash investment must equal at least 3 percent of the

                                                     90
contract sales price. Paragraph 2-10 provides that the cash investment in the property must equal
the difference between the amount of the insured mortgage; excluding any upfront mortgage
insurance premiums, and the total cost to acquire the property, including prepaid expenses and
closing costs.

Gift Funds Not Properly Assessed

Prospect’s file contained no documentation showing that it verified the receipt of the $3,330 in
gift funds. Thus, Prospect allowed the loan to close without confirming that the closing agent
received the nonprofit gift used to pay the borrower’s required investment in the property. The
HUD -1 settlement statement showed that the gift was paid. The missing document was required
to provide assurance that the gift was paid by the nonprofit organization and not by some other
interested party to the loan transaction. We obtained the documents needed to confirm receipt of
the gift from the settlement agent.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds are not
deposited into the borrower’s account before closing, the lender must obtain verification that the
closing agent received funds from the donor for the amount of the gift.




                                                91
FHA case number:                     105-3365433
Loan purpose:                        Purchase
Underwriter type:                    Manually underwritten
Closing date:                        December 28, 2007
Loan amount:                         $125,072
Debt-to-income ratio:                46.35 percent
Status:                              Claim paid, $135,323
Default reason:                      Curtailment of income

Questionable or Undocumented Compensating Factors

Prospect approved the high 46.35 percent debt-to-income ratio loan based on questionable
compensating factors. Specifically, Prospect cited the following compensating factors with
which we did not agree:

       The borrower had bonus income that was not used in the qualifying income – We agree
       that HUD allows lenders to claim a compensating factor for certain amounts that were not
       used as qualifying income. In this case, the bonus income averaged only $83 per month.
       If the amount had been included as effective income, the borrower’s debt-to-income ratio
       still would have exceeded HUD’s benchmark and required a legitimate compensating
       factor.

       The borrower had 2 months of reserves in a retirement account – HUD requires that
       borrowers have at least 3 months worth of reserves after closing as a basis for claiming
       cash reserves as a compensating factor.

       The borrower was a minimal debt user – The claimed compensating factor is not
       consistent with the credit report, which showed that the borrower had a recent judgment
       and a delinquent account. HUD Handbook 4155.1, paragraph 2-13(C), provides that
       borrowers must have demonstrated an ability to accumulate savings and have a
       conservative attitude toward the use of credit. The file contained no evidence that the
       borrower had accumulated savings outside the retirement account discussed above.

HUD Requirements

Mortgagee Letter 2005-16 increased the front ratio to 31 percent and the back ratio to 43 percent
for manually underwritten mortgages by direct endorsement underwriters. The letter further
provided that if either or both ratios are exceeded, the lender must describe the compensating
factors used to justify mortgage approval. HUD Handbook 4155.1, REV-5, paragraph 2-13,
provides compensating factors that may be used to justify approval of mortgage loans with ratios
above the benchmark guidelines. A compensating factor used to justify mortgage approval must
be supported by documentation.

Income Not Properly Assessed

Prospect overstated the borrower’s income based on an average income amount which it did not
verify as reasonably expected to continue. Prospect calculated the hourly waged borrower’s base

                                               92
income using a 35.65-month average without documenting and explaining why the borrower’s
2007 income with the same employer was more than $13,000 less than the amount earned in
2006. We recognize that in situations that involve overtime and bonus pay, HUD allows lenders
to average income over multiple years when the income amount varies from year to year.
However, lenders are only allowed to include income amounts that are likely to continue through
at least the first 3 years of the loan. The file contained no evidence that Prospect followed up
with the employer to obtain an explanation for why the verification of employment reflected
decreased earnings in 2007 and to determine the average number of hours the borrower worked
per week and the likelihood that the borrower would maintain the income level it used to approve
the loan. Prospect needed that information to accurately calculate the borrower’s net effective
income. The borrower’s back ratio would have increased from the 46.35 rate Prospect calculated
to more than 63 percent if net effective income had been calculated based on the borrower’s
11.65-month year-to-date pay for 2007. Neighborhood Watch showed that the reason for default
was curtailment of income.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-7, provides that the income of each borrower to be
obligated for the mortgage debt must be analyzed to determine whether it can reasonably be
expected to continue through at least the first 3 years of the mortgage loan.

Gift Funds Not Properly Assessed

Prospect’s file contained no documentation showing that it verified receipt of a $3,811 gift paid
to the closing agent by a nonprofit donor. Thus, Prospect allowed the loan to close without
verifying that the closing agent received the nonprofit gift used to pay the borrower’s required
investment in the property.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds are not
deposited into the borrower’s account before closing, the lender must obtain verification that the
closing agent received funds from the donor for the amount of the gift.




                                                93
FHA case number:                     105-3323949
Loan purpose:                        Purchase
Underwriter type:                    Manually underwritten
Closing date:                        December 21, 2007
Loan amount:                         $194,805
Debt-to-income ratio:                52.81 percent
Status:                              Default
Default reason:                      Curtailment of income

Questionable or Undocumented Compensating Factors

Prospect approved the loan based on a 49.15 percent debt-to-income ratio that exceeded HUD’s
43 percent benchmark without documenting compensating factors to justify its approval. The
remarks section of the mortgage credit analysis worksheet referenced an addendum to the
worksheet, but the loan file initially provided by Prospect did not contain an addendum to the
worksheet. We requested the missing documentation from Prospect, and Prospect provided it.
The documentation showed that Prospect justified its approval of the high 49.15 debt-to-income
ratio based on two compensating factors:

       The borrower is a minimal credit user – Prospect’s claim that the borrower had a
       conservative attitude toward credit was plausible, but it was not consistent with the
       overdrafts discussed below. In addition, for this compensating factor, HUD requires that
       borrowers have demonstrated an ability to accumulate savings. The borrower did not
       have a pattern of saving.

       The coborrower had potential for increased income – The claimed compensating factor
       was not supported. Specifically, the borrower’s prior year’s earnings did not increase
       significantly, and there was no documentation in the file to support that the borrower’s
       current earnings would increase.

HUD Requirements

Mortgagee Letter 2005-16 increased the front ratio to 31 percent and a back ratio to 43 percent
for manually underwritten mortgages by direct endorsement underwriters. The letter further
provided that if either or both ratios are exceeded, the lender must describe the compensating
factors used to justify mortgage approval. HUD Handbook 4155.1, REV-5, paragraph 2-13,
provides that compensating factors may be used to justify approval of mortgage loans with ratios
exceeding the benchmark guidelines. A compensating factor used to justify mortgage approval
must be supported and documented.

Income Not Properly Assessed

Prospect approved the loan based on an effective monthly income that included $1,212 for a job
which the borrower had held for less than 3 months following an extended 20-month period of
unemployment. The loan file showed that the gap in employment occurred during a period when
the borrower was ill and on disability pay. HUD requires borrowers to be employed for at least 6
months following an extended gap in employment to establish stability of income. In addition,


                                               94
the verification of employment did not answer the question concerning the borrower’s
probability of continued employment. HUD does not allow effective income to include amounts
that are not likely to continue. We contacted the employer and determined that the borrower
resigned in January 2008, less than 2 months after the loan closed. Adjustment for the ineligible
income and understated housing cost, discussed below, resulted in a 52.81 percent debt-to-
income ratio, compared to the 49.15 percent ratio that Prospect calculated.

HUD Requirements

HUD Handbook 4155.1, REV-5, section 2, provides that income may not be used in calculating
the borrower’s income ratios if it comes from a source that cannot be verified, is not stable, or
will not continue. Paragraph 2-6 provides that in some cases, a borrower may have recently
returned to the workforce after an extended absence. In these circumstances, the borrower’s
income may be considered effective and stable, provided the borrower has been employed in the
current job for 6 months or more.

Inadequate Assessment of Cash Assets

Prospect did not itemize the cost paid by its premium pricing contribution. The good faith
estimate and the HUD -1 settlement statement did not itemize the specific borrower closing costs
paid by a $600 premium pricing contribution that Prospect made on behalf of the borrower at
closing. Prospect was required to itemize the cost paid by the contribution versus stating the
amount as a lump sum.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 1-9(J) provides that lenders may pay the borrower’s
allowable closing costs and/or prepaid items by premium pricing. The good faith estimate and
the HUD-1 settlement statement must include an itemized statement indicating which items are
being paid on the borrower’s behalf; disclosing only a lump sum is not acceptable.

Gift Funds Not Properly Assessed

The loan file contained no documentation showing that Prospect verified receipt of a $5,890 gift
paid at closing by a nonprofit donor. Thus, Prospect allowed the loan to close without support
showing that the closing agent received the nonprofit gift used to pay the borrower’s required
investment in the property. The HUD -1 settlement statement showed that the gift was paid.
The missing document was required to provide assurance that the gift was paid by the nonprofit
organization and not by some other interested party to the loan transaction. We obtained the
documents needed to confirm receipt of the gift from the settlement agent.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds are not
deposited into the borrower’s account before closing, the lender must obtain verification that the
closing agent received funds from the donor for the amount of the gift.



                                                95
Other - Understated Liabilities (Housing Cost)

Prospect understated the borrower’s monthly housing cost by $24 because it omitted city
property taxes from the amount it used to determine the borrower’s monthly housing cost.
Adjustment for the understatement further contributed to the borrower’s already high debt-to-
income ratio.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-11(A), provides that lenders must include the
monthly housing expense and all additional recurring charges extending 10 months or more.




                                                 96
FHA case number:                     381-8578816
Loan purpose                         Purchase
Underwriter type:                    Manually underwritten
Closing date:                        June 27, 2008
Loan amount:                         $168,136
Debt-to-income ratio:                47.80percent
Status:                              Default
Default reason:                      Curtailment of income

Questionable or Undocumented Compensating Factors

Prospect did not provide compensating factors to justify its approval of the high debt-to-income
ratio loan. This issue was specifically important considering the borrower’s derogatory credit
history. We reviewed the loan file for possible compensating factors but did not identify any.

HUD Requirements

Mortgagee Letter 2005-16 increased the front ratio to 31 percent and a back ratio to 43 percent
for manually underwritten mortgages by direct endorsement underwriters. The letter further
provided that if either or both ratios are exceeded, the lender must describe the compensating
factors used to justify mortgage approval. HUD Handbook 4155.1, REV-5, paragraph 2-13,
provides that compensating factors may be used to justify approval of mortgage loans with ratios
that exceed the benchmark guidelines. A compensating factor used to justify mortgage approval
must be supported and documented.

Credit Not Properly Assessed

Prospect approved the loan despite the borrower’s derogatory credit and high debt-to-income
ratio. The automated underwriting finding report referred the loan for manual underwriting
because it exceeded the risk threshold for automated approval.

       Derogatory credit – The credit report showed that the borrower owed $2,577 for eight
       unpaid medical collection accounts. The accounts were opened from 2003 through 2005.
       The borrower’s failure to pay or to arrange to pay the collection accounts reflected a
       disregard for the otherwise legitimate credit obligations. The unpaid accounts were also
       significant because the file showed that the borrower did not pay them, although she had
       no monthly housing cost from November 2006 until the loan closed, after which she had
       a mortgage payment that totaled more than $1,305 per month. We recognize that HUD
       does not require collections accounts to be paid to approve a loan. Prospect should have
       documented compensating factors to justify why it approved the loan. Also, Prospect did
       not document the required analysis to determine whether the collection accounts were
       based on a disregard for financial obligations, an inability to manage debt, or factors
       beyond the control of the borrower.

       In addition, the credit report showed that in 2007, the borrower was 90 days delinquent
       for 5 months (February through June) on an automobile loan with payments of more than
       $350 per month. The borrower explained that the late payments occurred because she

                                               97
       mistakenly thought that an automatic withdrawal was set up from her account to make the
       payments.

Prospect’s quality control review stated that the loan had many risk factors which probably
contributed to the default, including a derogatory credit history, a housing cost increase of 100
percent, limited savings, excessive debt ratios, and a minimal cash investment in the transaction.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions. If the credit history, despite adequate income to support obligations,
reflects continuous slow payments, judgments, and delinquent accounts, strong compensating
factors will be necessary to approve the loan. When delinquent accounts are revealed, the lender
must document its analysis as to whether the late payments were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.

Income Not Properly Assessed

The file contained no documentation to support that Prospect verified the borrower’s likelihood
of continued employment. The borrower had only worked for the employer for 1.5 months. The
employment was preceded by a 1-month gap from a job she held for 17 months with another
employer in the same line of work. Prospect’s quality control review showed that the borrower’s
hours were reduced within 2 months after the loan closed and the borrower was unemployed
within 5 months after the loan closed.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-7, provides that the income of each borrower to be
obligated for the mortgage debt must be analyzed to determine whether it can reasonably be
expected to continue through at least the first 3 years of the mortgage loan. HUD Handbook
4155.1, REV-5, paragraph 2-6, provides that to analyze and document probability of continued
employment, lenders must examine the borrower’s past employment record, qualifications for
the position, previous training and education, and the employer's confirmation of continued
employment.

Inadequate Assessment of Cash Assets

Prospect allowed the loan to close without adequate resolution or documentation related to the
minimum downpayment, earnest money deposit, and premium pricing.

       Minimum downpayment not paid – Prospect allowed the loan to close without requiring
       the borrower to pay the full $6,294 minimum downpayment that it calculated to be
       required on the mortgage credit analysis worksheet. The file showed that the borrower
       only invested $5,585 in the property, which consisted of a questionable $500 earnest
       money deposit and a $5,085 gift. The borrower’s documented downpayment was $709
       ($6,294-$5,585) less than the amount Prospect calculated to be required. This issue was

                                                98
       also significant because, as discussed below, Prospect understated the borrower’s
       minimum downpayment by $789 and did not properly verify payment of the earnest
       money deposit. Thus, the borrower did not pay a total of $1,498 that we determined to be
       the required minimum downpayment, and Prospect did not verify that the borrower had
       the funds needed to pay that amount.

       Minimum downpayment understated – Prospect understated the borrower’s minimum
       downpayment on the mortgage credit analysis worksheet by $789 because the estimates it
       used to calculate the amount were less than the amounts shown on the HUD -1 settlement
       statement. The incorrect calculation caused HUD to overinsure the mortgage by the $789
       shown here and the $709 discussed above for a total overinsurance of $1,498. Therefore,
       Prospect should buy down the mortgage by the overinsured amount.

       Earnest money deposit not verified as paid – The file contained a bank statement, which
       showed that the bank returned the borrower’s $500 check for the earnest money deposit
       due to insufficient funds. The file contained no evidence that Prospect verified that the
       borrower deposited funds into her bank account to cover the check and that the check
       cleared the bank. The returned check should have prompted Prospect to verify payment
       of the earnest money deposit.

       Premium pricing contribution – The good faith estimate and the HUD -1 settlement
       statement did not itemize the specific borrower closing costs paid by the $750 premium
       pricing contribution that Prospect made on behalf of the borrower at closing. Prospect
       was required to itemize the cost paid by the contribution versus stating the amount as a
       lump sum.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 1-7, provides that the borrower must make a cash
investment that is at least equal to the difference between the sales price and the resulting
maximum mortgage amount but that the cash investment must equal at least 3 percent of the
contract sales price. Paragraph 2-10(A) provides that if the amount of the earnest money deposit
appears excessive, based on the borrower’s history of accumulating savings, the lender must
verify with documentation the deposit amount and the source of funds used for the earnest
money deposit. Paragraph 1-9(J) provides that lenders may pay the borrower’s allowable closing
costs and/or prepaid items by premium pricing. The good faith estimate and the HUD -1
settlement statement must include an itemized statement indicating which items are being paid
on the borrower’s behalf, and disclosing only a lump sum is not acceptable.

Gift Funds Not Properly Assessed

Prospect’s file contained no documentation showing that it verified the receipt of the $5,085 in
gift funds. Thus, Prospect allowed the loan to close without confirming that the closing agent
received the nonprofit gift used to pay a portion of the borrower’s required investment in the
property. The HUD -1 settlement statement showed that the gift was paid. The missing
document was required to provide assurance that the gift was paid by the nonprofit organization


                                               99
and not by some other interested party to the loan transaction. We obtained the documents
needed to confirm receipt of the gift from the settlement agent.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds are not
deposited into the borrower’s account before closing, the lender must obtain verification that the
closing agent received funds from the donor for the amount of the gift.




                                               100
FHA case number:                     105-3353198
Loan purpose:                        Purchase
Underwriter type:                    Manually underwritten
Closing date:                        December 21, 2007
Loan amount:                         $183,643
Debt-to-income ratio:                45.48 percent
Status:                              Default
Default reason:                      Curtailment of income
Credit Not Properly Assessed
Prospect approved the loan despite the borrower’s and coborrower’s history of derogatory credit.
The automated underwriting finding report referred the loan for manual underwriting because the
loan exceeded the risk threshold for automated approval.

       Inadequate assessment of the borrower credit – Prospect approved the loan, although the
       borrower demonstrated that she had a problem making payments to creditors during a
       bankruptcy process and after she was dismissed from the bankruptcy. The borrower was
       dismissed from the bankruptcy in February 2005 because she defaulted on the payment
       plan. After being dismissed from the bankruptcy, the credit report showed that the
       borrower accumulated more than $1,736 in unpaid collections on four accounts that were
       less than 2 years old when Prospect approved the loan. The file also showed that the
       borrower was late six times on payments on a credit card account during the 12-month
       period before Prospect approved the loan. The dismissal of the bankruptcy, recent
       collection accounts, and late payments indicated that the borrower had a continuing
       problem managing and paying her credit obligations.

       Inadequate assessment of the coborrower’s credit – The credit report showed that the
       coborrower had $1,229 in unpaid collections for three different accounts opened in 2006
       or 2007. The loan closed in December 2007. The collection accounts included $725 for
       one account that was less than 1 year old and $504 for two accounts that were 12 to 19
       months old when Prospect approved the loan.

       The borrower’s failure to pay or to arrange to pay the collection accounts reflected a
       disregard for the otherwise legitimate credit obligations. We recognize that HUD does
       not require collection accounts to be paid to approve a loan. Prospect should have
       documented compensating factors to justify why it approved the loan. Also, Prospect did
       not document the required analysis to determine whether the collection accounts were
       based on a disregard for financial obligations, an inability to manage debt, or factors
       beyond the control of the borrower.

       Prospect disagreed with our conclusion, citing that the derogatory credit which led to the
       bankruptcy occurred because the borrower was unemployed for awhile to take care of a
       sick relative. The file did not explain why the borrower developed derogatory credit after
       the bankruptcy and contained no evidence that Prospect analyzed the reason for the poor
       credit following the bankruptcy.




                                              101
HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions. If the credit history, despite adequate income to support obligations,
reflects continuous slow payments, judgments, and delinquent accounts, strong compensating
factors will be necessary to approve the loan. When delinquent accounts are revealed, the lender
must document its analysis as to whether the late payments were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.

Inadequate Assessment of Cash Assets

Prospect understated the borrower’s minimum downpayment for the property and did not
adequately verify or document that it verified the source of $1,347 that the borrower used for an
earnest money deposit and to pay off a debt.

       Minimum downpayment understated – Prospect understated the borrower’s minimum
       downpayment on the mortgage credit analysis worksheet by $397 because the estimates it
       used to calculate the amount were substantially lower than the amounts shown on the
       HUD -1 settlement statement. The incorrect calculation caused HUD to overinsure the
       mortgage by $397. This issue was significant because as discussed below, Prospect did
       not verify that the borrower had adequate funds to close the loan based on the lesser
       minimum downpayment and closing cost shown on the HUD -1 settlement statement, let
       alone the increased investment reflected by our calculation. Prospect should buy down
       the mortgage by the over insured amount.

       Inadequate verification of the earnest money deposit – Prospect did not verify the source
       of funds that the borrower used to purchase a $1,000 money order to pay the earnest
       money deposit. This was an important omission considering that the file contained no
       documentation to support that the borrower had a history of savings. The file showed that
       the real estate broker stated that the earnest money payment was received in June 2007, 6
       months before the loan closed. The missing document was required to provide assurance
       that the earnest money was paid by the borrower and not by some other interested party.
       The file only provided bank statements for the coborrower, which did not show the
       withdrawal of the funds and did not show a savings or earnings pattern that would allow
       for accumulation of the funds to cover the earnest money deposit. Prospect disagreed
       with our assessment because the amount of the earnest money deposit was less than 2
       percent of the purchase price.

       Inadequate verification of the source of funds the borrower paid at closing – The HUD -1
       settlement statement showed that the borrower paid $347 at closing. However, the loan
       application showed that the borrower had no cash. The file contained no evidence to
       show the source of the $347 and whether the funds came from an allowable source. This
       issue was also significant because, as discussed above, Prospect understated the




                                               102
       borrower’s minimum downpayment by $397. The understatement would have required
       more cash from the borrowers to close the loan at a time when they did not have the
       documented cash to close the loan based on the lesser cost shown on the HUD -1
       settlement statement.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10, provides that all funds for the borrower’s
investment in the property must be verified and documented. Paragraph 2-10(A) provides that if
the amount of the earnest money deposit appears excessive based on the borrower’s history of
accumulating savings, the lender must verify with documentation the deposit amount and the
source of funds.

Gift Funds Not Properly Assessed

The loan file contained no documentation showing that Prospect verified receipt of a $5,553 gift
paid at closing by a nonprofit donor. Thus, Prospect allowed the loan to close without support
showing that the closing agent received the nonprofit gift used to pay the borrower’s required
investment in the property. The HUD -1 settlement statement showed that the gift was paid.
The missing document was required to provide assurance that the gift was paid by the nonprofit
organization and not by some other interested party to the loan transaction. We obtained the
documents needed to confirm receipt of the gift from the settlement agent.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds are not
deposited into the borrower’s account before closing, the lender must obtain verification that the
closing agent received funds from the donor for the amount of the gift.




                                               103
FHA case number:                      461-4313298
Loan purpose:                         Purchase
Underwriter type:                     Manually underwritten
Closing date:                         May 9, 2008
Loan amount:                          $177,625
Debt-to-income ratio:                 62.18 percent
Status:                               Default
Default reason:                       Curtailment of income

Questionable or Undocumented Compensating Factors

The compensating factor Prospect used to approve the high 55.77 percent debt -to-income ratio
loan was not valid and did not justify the approval. Prospect based its approval on a
compensating factor that read, “Spouse works and receives child support of $379/month, ratios
are very low.” This was not a valid compensating factor because the “spouse” was not a party to
the loan; therefore, her income should not have been a factor in assessing the borrower’s
eligibility. In addition, the file contained unresolved discrepancies as to whether the borrower
was married at the time of the loan. The loan application showed that the borrower was single,
and the file contained a divorce decree from a previous marriage. The underwriter did not
resolve the discrepancies in the loan file concerning the borrower’s marital status and the effect it
had on the accuracy of the stated compensating factor. Also, the reference to the low ratios was
not true, considering that the approved 55.77 percent ratio that Prospect approved exceeded the
HUD 43 percent benchmark by more than 12 percentage points.

HUD Requirements

Mortgagee Letter 2005-16 increased the front ratio to 31 percent and a back ratio to 43 percent
for manually underwritten mortgages by direct endorsement underwriters. The letter further
provided that if either or both ratios are exceeded, the lender must describe the compensating
factors used to justify mortgage approval. HUD Handbook 4155.1, REV-5, paragraph 2-13,
provides a list of compensating factors that may be used to justify approval of mortgage loans
with debt ratios that exceed the benchmark guidelines. A compensating factor used to justify
mortgage approval must be supported by documentation.

Credit Not Properly Assessed

Prospect approved the loan despite the borrower’s history of credit problems. The automated
underwriting finding report referred the loan for manual underwriting because the loan exceeded
the risk threshold for automated approval. Prospect’s quality control review showed that the
loan was a high-risk transaction and that the borrower’s credit history did not support an ability
to manage monthly payments similar to the monthly mortgage payment. The credit report
showed that when Prospect approved the loan, the borrower owed more than $18,400 for
accounts that were in collection ($17,903) or charged off ($535). The total unpaid obligations
included more than $18,300 for accounts that were less than 2 years old and $108 for an account
that was more than 2 years old. The unpaid obligations indicate that the borrower had a
continued trend of credit problems. Thus, at the time Prospect approved the loan, the borrower
had not developed and maintained a record of good payments needed to justify the approval.

                                                104
For instance, one of the collections was for automobile loans that had a balance of more than
$17,200. The borrower provided a written explanation stating that the vehicles were awarded (in
a divorce decree) to his ex-wife and that she was responsible for the payments. However, the file
did not provide documentation to support the borrower’s claim. We recognize that HUD does
not require collection accounts to be paid to approve a loan. Prospect should have documented
compensating factors to justify why it approved the loan. Also, Prospect did not document the
required analysis to determine whether the collection accounts were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions. If the credit history, despite adequate income to support obligations,
reflects continuous slow payments, judgments, and delinquent accounts, strong compensating
factors will be necessary to approve the loan. When delinquent accounts are revealed, the lender
must document its analysis as to whether the late payments were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.

Income Not Properly Assessed

Prospect calculated the borrower’s monthly income based on a salary amount it obtained in a
telephone interview with the employer, but the amount was not consistent with the borrower’s
pay stubs. Prospect also did not verify the borrower’s likelihood of continued employment. The
pay stubs showed that the borrower was an hourly laborer, but the income amount Prospect
calculated was based on a salary. Also, the borrower’s monthly income based on the pay stubs
amounted to $2,860 versus the $3,189 that Prospect calculated, a monthly difference of $329.
We did not include overtime because the file did not contain information needed to support
overtime pay for 2007 and prior years, nor was the income amount verified as likely to continue.
Adjustment for the overstated income increased the borrower’s debt-to-income ratio from the
already high 55.77 percent rate Prospect calculated to 62.18 percent. We also noted that the pay
stubs in Prospect’s files were faxed by the seller versus Prospect’s obtaining the documents
directly from the borrower.

Prospect disagreed with our conclusion and stated that we should have considered overtime
reflected on the borrower’s pay stub. As discussed above, we did not include overtime because it
was not properly supported or verified as likely to continue.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-7, provides that the income of each borrower to be
obligated for the mortgage debt must be analyzed to determine whether it can reasonably be
expected to continue through at least the first 3 years of the mortgage loan. Paragraph 2-7(A)
provides that overtime income may be used to qualify if the borrower has received such income
for the past 2 years and it is likely to continue. Periods of less than 2 years may be acceptable,
provided the lender justifies and documents in writing the reason for using the income for
qualifying purposes. Paragraph 3-1 provides that lenders may not accept or use documents

                                               105
relating to employment or income of borrowers that are handled by or transmitted from or
through interested third parties (e.g., real estate agents, builders, sellers) or by using their
equipment.

Gift Funds Not Properly Assessed

Prospect’s file contained no documentation showing that it verified the receipt of $8,894 in gift
funds that was supposed to be paid to the closing agent by a nonprofit donor. Thus, Prospect
allowed the loan to close without confirming that the closing agent received the nonprofit gift
used to pay the borrower’s required investment in the property. The missing document was
required to provide assurance that the gift was paid by the nonprofit organization and not by
some other interested party to the loan transaction.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds are not
deposited into the borrower’s account before closing, the lender must obtain verification that the
closing agent received funds from the donor for the amount of the gift.




                                                  106
FHA case number:                     381-8867369
Loan purpose:                        Purchase
Underwriter type:                    Manually underwritten
Closing date:                        February 3, 2009
Loan amount:                         $143,467
Debt-to-income ratio:                52.09 percent
Status:                              Default
Default reason:                      Unknown - Unable to contact borrower

Credit Not Properly Assessed

Prospect approved the loan, although the credit report showed that the borrower and the
coborrower owed a total of more than $19,200 for 58 collection accounts and had not arranged to
pay them. Prospect’s quality control review also reported that the borrowers had a significant
amount of derogatory credit. The majority of the collections were for medical bills that totaled
more than $15,000. The file contained no documentation from the borrowers disputing
responsibility for the accounts. We recognize that HUD does not require collections accounts to
be paid to approve a loan. Prospect should have documented compensating factors to justify
why it approved the loan. Also, Prospect did not document the required analysis to determine
whether the collection accounts were based on a disregard for financial obligations, an inability
to manage debt, or factors beyond the control of the borrower. Neighborhood Watch showed
that the borrowers defaulted on the loan 9 months after closing.

Prospect disagreed with our assessment and stated that HUD’s mission does not state that HUD
provides affordable housing to all who have adequate medical insurance. The response indicates
that Prospect did not consider the medical collection accounts to be an issue that should have
affected its approval of the loan. We recognize that conditions that require individuals to incur
medical bills are normally beyond one’s control. However, the responsibility to pay such
accounts is not only within one’s control, but also reflects an individual’s responsibility toward
debt obligations.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions. If the credit history, despite adequate income to support obligations,
reflects continuous slow payments, judgments, and delinquent accounts, strong compensating
factors will be necessary to approve the loan. When delinquent accounts are revealed, the lender
must document its analysis as to whether the late payments were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.

Debts Not Properly Assessed

Prospect did not properly assess and report the borrower’s debt-to-income ratio calculation. The
52.33 percent debt-to-income ratio Prospect showed on form HUD-92900-LT (FHA Loan
Underwriting and Transmittal Summary) did not match the 37.94 percent rate supported by the
numbers it entered on the form. This condition occurred because Prospect understated the debts

                                               107
and apparently entered the higher ratio based on another calculation, which was not documented
in the file. HUD’s Neighborhood Watch system showed a lower 37.90 debt-to-income ratio. We
calculated a 52.09 debt-to-income ratio based on information contained on the borrowers’ loan
applications and credit reports. The 52.09 percent rate that we calculated was only slightly
different from the unsupported 52.33 rate that Prospect calculated and the much lower 37.90
percent rate that was entered into HUD’s system. The incorrect data distorted information HUD
uses to monitor lender loan origination activity.

HUD Requirements

HUD Handbook 4155.1, REV 5, paragraph 2-11(A), provides that in computing the debt-to-
income ratios, the lender must include the monthly housing expense and all additional recurring
charges extending 10 months or more. Debts lasting less than 10 months must be counted if the
amount of the debt affects the borrower’s ability to make the mortgage payment during the
months immediately after loan closing.

Other – (Questionable Occupancy Certification)

Prospect approved the loan without requiring the coborrower to provide specific information
about her occupancy certification for the FHA property, when she and her husband owned and
lived in another property located less than a half mile from the FHA property. The loan
application provided inconsistent information regarding the borrower’s occupancy status.
Specifically, the loan application showed that the borrower intended to both occupy and not
occupy the property. The file showed that the coborrower and her husband had a first and
second mortgage on the other property. The coborrower’s loan application listed the other
property as a rental, but at the time of the loan application, the property was listed as her
residence. The file contained no other information about the coborrower’s and her husband’s
plans to lease the other property and to move into the FHA property. HUD requires the borrower
to establish bona fide occupancy in the FHA property as the borrower’s principal residence
within 60 days after he or she signs the security agreement. Prospect did not follow up to obtain
specific information to support when the coborrower and her husband planned to move into the
FHA property.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 1-2, states that a principal residence is a property that
will be occupied by the borrower for the majority of the calendar year. At least one borrower
must occupy the property and sign the security instrument and the mortgage note for the property
to be considered owner-occupied. The security instruments require a borrower to establish bona
fide occupancy in the home as the borrower’s principal residence within 60 days after signing.
Paragraph 1-4 states that an investment property is a property that is not occupied by the
borrower as a principal residence or as a secondary residence. With permission from the
appropriate HOC, private investors may obtain FHA-insured mortgages.




                                              108
FHA case number:                      105-3405939
Loan purpose:                         Purchase
Underwriter type:                     Manually underwritten
Closing date:                         January 28, 2008
Loan amount:                          $144,077
Debt-to-income ratio:                 46.81 Percent
Status:                               Default
Default reason:                       Unemployment

Questionable or Undocumented Compensating Factors

Prospect provided no compensating factors to justify its approval of the 46.81 percent debt-to-
income ratio which exceeded HUD’s 43 percent benchmark. The remarks section of the
mortgage credit analysis worksheet commented that the parties to the loan cleared HUD’s
limited denial of participation list and the General Services Administration’s list of parties
excluded from Federal procurement or nonprocurement programs. However, these were not
compensating factors but were requirements that all borrowers must meet. We reviewed the loan
file for other allowable compensating factors but did not identify any. Thus, Prospect allowed a
debt-to-income ratio that exceeded HUD’s benchmark without providing valid compensating
factors to justify its approval of the loan. This issue was particularly significant considering the
borrower’s derogatory credit discussed below.

HUD Requirements

Mortgagee Letter 2005-16 increased the front ratio to 31 percent and the back ratio to 43 percent
for manually underwritten mortgages by direct endorsement underwriters. The letter further
provided that if either or both ratios are exceeded, the lender must describe the compensating
factors used to justify mortgage approval. HUD Handbook 4155.1, REV-5, paragraph 2-13,
provides compensating factors that may be used to justify approval of mortgage loans with ratios
above the benchmark guidelines. A compensating factor used to justify mortgage approval must
be supported by documentation.

Credit Not Properly Assessed

Prospect approved the loan, although the credit report showed that the borrower owed more than
$5,100 for collection accounts and had not arranged to pay them. The unpaid obligations
included more than $3,400 for four accounts that were less than 2 years old and more than
$1,600 for four accounts that were more than 2 years old. The file contained no documentation
from the borrower disputing responsibility for the accounts. We recognize that HUD does not
require collections accounts to be paid to approve a loan, yet Prospect should have documented
compensating factors to justify why it approved the loan. Also, Prospect did not document the
required analysis to determine whether the collection accounts were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.
Prospect’s quality control review also reported that the borrowers had an outstanding derogatory
credit.




                                                109
Prospect disagreed with our conclusion, citing that the derogatory credit occurred because the
borrower was unemployed for a while to take care of sick relatives. The file showed that the
borrower claimed that the derogatory credit occurred because she had to help her parents. We
recognize that conditions such as those explained by the borrower occur and that the condition
itself may have been beyond a borrower’s control. However, the responsibility to pay debts that
resulted from such conditions was within the borrower’s control and, as discussed above,
Prospect did not assess or document its assessment as to why the borrower did not pay the
collection accounts.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions. If the credit history, despite adequate income to support obligations,
reflects continuous slow payments, judgments, and delinquent accounts, strong compensating
factors will be necessary to approve the loan. When delinquent accounts are revealed, the lender
must document its analysis as to whether the late payments were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.

Gift Funds Not Properly Assessed

Prospect’s file contained no documentation showing that it verified the receipt of the $4,356 in
gift funds. Thus, Prospect allowed the loan to close without confirming that the closing agent
received the nonprofit gift used to pay the borrower’s required investment in the property. The
HUD -1 settlement statement showed that the gift was paid. The missing document was required
to provide assurance that the gift was paid by the nonprofit organization and not by some other
interested party to the loan transaction. We obtained the documents needed to confirm receipt of
the gift from the settlement agent.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds are not
deposited into the borrower’s account before closing, the lender must obtain verification that the
closing agent received funds from the donor for the amount of the gift.




                                               110
FHA case number:                      105-4101563
Loan purpose:                         Purchase
Underwriter type:                     Automated
Date of loan closing:                 September 29, 2008
Loan amount:                          $135,099
Debt-to-income ratio:                 Unknown
Status:                               Default
Default reason:                       Unemployment

Credit Not Properly Assessed

Prospect underwrote the loan with no support for how it assessed the borrower’s credit history.
The loan file did not contain a credit report, although Prospect was required to obtain either a
traditional or nontraditional credit report on the borrower. HUD requires lenders to consider
borrowers’ past credit performance, because it serves as the most useful guide in determining the
borrower’s attitude toward credit obligations and predicting a borrower’s future actions. The
missing credit report rendered the automated approval invalid, and the loan should have been
referred for manual underwriting. For instance, the findings report commented that if the
bankruptcy (discussed below) was not reported on the credit report, the loan must be referred to
an underwriter for compliance. The report also required Prospect to obtain and review the credit
report for other issues, including but not limited to inquiries, and the payoff of outstanding
judgments. In addition, the file showed that the borrower

       Filed for Chapter 13 bankruptcy protection in 2001. The file did not contain
       documentation concerning the disposition of the bankruptcy or whether the borrower
       made satisfactory payments under the terms of the bankruptcy agreement.

       Incurred $385 for five insufficient fund charges approximately 1 month before the loan
       closed. The borrower explained that the returned items occurred because “things were
       tight at the time.”

Prospect’s quality control findings stated that the reason for default appeared to be several
factors that included the debt ratios, minimal cash investment, and a history of derogatory credit.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions. If the credit history, despite adequate income to support obligations,
reflects continuous slow payments, judgments, and delinquent accounts, strong compensating
factors will be necessary to approve the loan. When delinquent accounts are revealed, the lender
must document its analysis as to whether the late payments were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.
Paragraph 2-4 requires that lenders obtain either traditional or nontraditional credit reports. Total
Scorecard Userguide states that a manual downgrade becomes necessary if additional information,
not considered in the automated underwriting system decision, affects the overall insurability or
eligibility of a mortgage otherwise rated as an accept or approve. It further provides that manual


                                                111
downgrades may be triggered by inaccuracies in credit reporting and for issues associated
bankruptcy.

Debts Not Properly Assessed

Prospect underwrote the loan with no support for how it calculated the borrower’s monthly
debts. The loan file did not contain a credit report, although Prospect was required to obtain
either a traditional or nontraditional credit report on the borrower. Due to the missing
documentation, we were unable to determine whether the debts entered into HUD’s automated
system were complete and accurate.

HUD Requirements

HUD Handbook 4155.1, REV 5, paragraph 2-11(A), provides that in computing the debt-to-
income ratios, the lender must include the monthly housing expense and all additional recurring
charges extending 10 months or more. Debts lasting less than 10 months must be counted if the
amount of the debts affects the borrower’s ability to make the mortgage payments during the
months immediately after loan closing. Paragraph 2-4 require that lenders obtain either
traditional or nontraditional credit reports.

Inadequate Assessment of Cash Assets

Prospect did not itemize the cost paid by its premium pricing contribution. The good faith
estimate and the HUD -1 settlement statement should have but did not itemize the specific
borrower closing costs paid by the $1,000 premium pricing contribution Prospect made on behalf
of the borrower at closing. Prospect was required to itemize the cost paid by the contribution
versus stating the amount as a lump sum.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 1-9(J) provides that lenders may pay the borrower’s
allowable closing costs and/or prepaid items by premium pricing. The good faith estimate and
the HUD -1 settlement statement must include an itemized statement indicating which items are
being paid on the borrower’s behalf; disclosing only a lump sum is not acceptable.

Gift Funds Not Properly Assessed

The loan file contained no documentation showing that Prospect verified receipt of a $6,792 gift
paid at closing by a nonprofit donor. Thus, Prospect allowed the loan to close without support
that the closing agent received the nonprofit gift used to pay the borrower’s required investment
in the property. The HUD -1 settlement statement showed that the gift was paid. The missing
document was required to provide assurance that the gift was paid by the nonprofit organization
and not by some other interested party to the loan transaction.




                                                112
HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds are not
deposited into the borrower’s account before closing, the lender must obtain verification that the
closing agent received funds from the donor for the amount of the gift.




                                               113
FHA case number:                     105-3720079
Loan purpose:                        Purchase
Underwriter type:                    Manually underwritten
Closing date:                        May 29, 2008
Loan amount:                         $350,565
Debt-to-income ratio:                49.79 percent
Status:                              Default
Default reason:                      Illness of mortgagor family member

Questionable or Undocumented Compensating Factors

Prospect approved the high 49.79 percent debt-to-income ratio loan based on the following
invalid compensating factors:

       Reimbursement for mileage – This was not a valid compensating factor because mileage
       reimbursement is not income. The reimbursement is designed to compensate the payee
       for the cost of operating the vehicle used for official travel. Further, the borrower’s
       reimbursement amounts were not significant.

       Bonus income – The loan file contained no documentation to support that the borrower
       would receive bonus income.

We reviewed the loan file for other allowed compensating factors but did not identify any.

HUD Requirements

Mortgagee Letter 2005-16 increased the front ratio to 31 percent and the back ratio to 43 percent
for manually underwritten mortgages by direct endorsement underwriters. The letter further
provided that if either or both ratios are exceeded, the lender must describe the compensating
factors used to justify mortgage approval. HUD Handbook 4155.1, REV-5, paragraph 2-13,
provides compensating factors that may be used to justify approval of mortgage loans with ratios
above the benchmark guidelines. A compensating factor used to justify mortgage approval must
be supported by documentation.

Credit Not Properly Assessed

Prospect approved the loan without documenting what consideration it gave to the fact that the
borrower had 2 return items for insufficient funds during the month the loan closed. Prospect’s
quality control review also reported that the borrowers had a significant amount of derogatory
credit.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions.


                                               114
FHA case number:                     105-3535564
Loan purpose:                        Purchase
Underwriter type:                    Manually underwritten
Closing date:                        March 28, 2008
Loan amount:                         $120,076
Debt-to-income ratio:                47.17 percent
Status:                              Delinquent
Default reason:                      Excessive obligations

Questionable or Undocumented Compensating Factors

Prospect approved the high 46.19 percent debt-to-income ratio loan based on questionable
compensating factors. Specifically, Prospect cited the following compensating factors, which we
determined were not valid:

       The borrower was a minimal debt user – This was not a valid compensating factor
       because, as discussed below, the borrower not only had debts, but also showed a lack of
       responsibility toward paying them.

       The borrower had a minimal housing increase – This was not a valid compensating factor
       because, as discussed below, the borrower had credit problems immediately before the
       loan closing at which time her monthly housing cost was $166 less than it was after the
       loan closed.

HUD Requirements

Mortgagee Letter 2005-16 increased the front ratio to 31 percent and the back ratio to 43 percent
for manually underwritten mortgages by direct endorsement underwriters. The letter further
provided that if either or both ratios are exceeded, the lender must describe the compensating
factors used to justify mortgage approval. HUD Handbook 4155.1, REV-5, paragraph 2-13,
provides compensating factors that may be used to justify approval of mortgage loans with ratios
above the benchmark guidelines. A compensating factor used to justify mortgage approval must
be supported by documentation.

Credit Not Properly Assessed

Prospect approved the loan despite the borrower’s recent history of credit problems at a time
when her monthly rent payment was $166 less than the mortgage on the new property. The
credit report showed that the borrower owed more than $890 in collections that included $760
for five accounts that were less than 2 years old and $132 for an account that was more than 2
years old. The automated underwriting finding report referred the loan for manual underwriting
because it exceeded the risk threshold for automated approval. The borrower disputed
responsibility for $308 of the collections amount, but she agreed to pay off four collection
accounts with balances that totaled $610, discussed below. We recognize that HUD does not
require collections accounts to be paid to approve a loan, yet Prospect did not document the
required analysis as to whether the late payments were based on a disregard for financial
obligations, an inability to manage debt, or factors beyond the control of the borrower.


                                               115
Prospect’s quality control review showed that the borrower was not able to maintain a
satisfactory credit history or establish a savings pattern at the lower rent amount.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions. If the credit history, despite adequate income to support obligations,
reflects continuous slow payments, judgments, and delinquent accounts, strong compensating
factors will be necessary to approve the loan. When delinquent accounts are revealed, the lender
must document its analysis as to whether the late payments were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.

Inadequate Assessment of Cash Assets

Prospect understated the borrower’s minimum downpayment, did not adequately verify the
source of cash the borrower contributed to the transaction, and did not itemize the closing costs
paid with its premium pricing contribution.

       Minimum downpayment understated – Prospect understated the borrower’s minimum
       downpayment on the mortgage credit analysis worksheet by $736. The understatement
       occurred because the estimates Prospect used for closing cost were substantially lower
       than the amounts shown on the settlement statement. Based on the file, the borrower did
       not have the cash needed to pay the additional downpayment that would have been
       required if Prospect had correctly calculated the downpayment. The incorrect calculation
       caused HUD to overinsure the mortgage by $736. Therefore, Prospect should buy down
       the mortgage by the overinsured amount.

       Inadequate verification of borrower cash – Prospect did not adequately verify or
       document its verification that the borrower had accumulated the $651 in cash used to pay
       the $500 earnest money deposit and $151 at closing. The file showed that the borrower
       did not have a bank account. The file contained no evidence that the borrower provided
       the required written explanation of how the funds were accumulated and the amount of
       time taken to do so. The file contained two money orders (one for $400 and one for
       $100) for the earnest money deposit that were made payable to the seller. The file did not
       indicate how the borrower paid the $151 that was due at closing. Prospect disagreed with
       our conclusion and stated that further verification of the source of the funds was not
       required due to the low dollar amounts involved.

       In addition, Prospect did not properly verify the source of funds the borrower used to pay
       off $610 for four collection accounts. The file indicated that the accounts were paid with
       the proceeds from a cashier’s check, which the seller faxed to Prospect, but the payment
       was actually made at closing. The check was made payable to the borrower versus the
       creditors or the settlement agent, and it was purchased by another individual on the date
       of closing. The file did not document what relationship the other individual had with the
       borrower, nor did it document what the borrower did with the cashier’s check. The
       settlement statement listed the four collection accounts as part of the borrower’s closing

                                               116
       cost, but it did not list the $610 cashier’s check as part of the funds provided to close the
       loan. We assessed the sources and application of funds shown on the settlement
       statement and determined that the debts were paid from the borrower’s earnest money
       deposit and the cash she provided at closing.

       Premium pricing contribution – The good faith estimate and the HUD -1 settlement
       statement did not itemize the specific borrower closing costs paid by a the $369 premium
       pricing contribution Prospect made on behalf of the borrower at closing. Prospect was
       required to itemize the cost paid by the contribution versus stating the amount as a lump
       sum.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 1-7, provides that the borrower must make a cash
investment that is at least equal to the difference between the sales price and the resulting
maximum mortgage amount but that the cash investment must equal at least 3 percent of the
contract sales price. Paragraph 2-10 provides that all funds for the borrower’s investment in the
property must be verified and documented. Paragraph 2-10(M) provides that borrowers are
permitted to use cash saved at home if they are able to demonstrate adequately the ability to do
so. The asset verification process requires the borrower to explain in writing how such funds
were accumulated and the amount of time taken to do so. The lender must determine the
reasonableness of the accumulation of the funds based on the borrower’s income stream, the
period during which the funds were saved, the borrower’s spending habits, documented
expenses, and the borrower’s history of using financial institutions. Paragraph 1-9(J) provides
that lenders may pay the borrower’s allowable closing costs and/or prepaid items by premium
pricing. The good faith estimate and the HUD -1 settlement statement must include an itemized
statement indicating which items are being paid on the borrower’s behalf, and disclosing only a
lump sum is not acceptable.

Gift Funds Not Properly Assessed

The loan file contained no documentation showing that Prospect verified receipt of a $ 3,630 gift
paid at closing by a nonprofit donor. Thus, Prospect allowed the loan to close without support
that the closing agent received the nonprofit gift used to pay the borrower’s required investment
in the property. The HUD -1 settlement statement showed that the gift was paid. The missing
document was required to provide assurance that the gift was paid by the nonprofit organization
and not by some other interested party to the loan transaction. We obtained the documents
needed to confirm receipt of the gift from the settlement agent.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds are not
deposited into the borrower’s account before closing, the lender must obtain verification that the
closing agent received funds from the donor for the amount of the gift.
Other - Understated Liabilities (Housing Cost)
Prospect understated the borrower’s monthly housing cost by $42. We used the amounts
reflected on the HUD -1 settlement statement for housing costs. The $42 is the net of a $27

                                                117
understatement for taxes and an ($15) overstatement for insurance. The understated amount
contributed to the borrower’s high debt-to-income ratio.

HUD Requirements

HUD Handbook 4155.1, REV 5, paragraph 2-11(A), provides that in computing the debt-to-
income ratios, the lender must include the monthly housing expense and all additional recurring
charges extending 10 months or more.




                                              118
FHA case number:                     105-3451957
Loan purpose:                        Purchase
Underwriter type:                    Manually underwritten
Closing date:                        February 29, 2008
Loan amount:                         $100,059
Debt-to-income ratio:                46.29 percent
Status:                              Delinquent
Default reason:                      Illness of principal mortgagor

Questionable or Undocumented Compensating Factors

Prospect approved the high 46.29 percent debt-to-income ratio loan based on invalid or
unsupported compensating factors.

       Minimal debt user – The minimal use of debt was not a compensating factor allowed by
       HUD. HUD Handbook 4155.1, paragraph 2-13(C), provides that borrowers must have
       demonstrated an ability to accumulate savings and have a conservative attitude toward
       the use of credit. The borrower’s bank statement, dated approximately a week before
       closing, showed a balance of only $39.14.

       Potential earning increase – The potential for increased earnings was a valid
       compensating factor, but it was not supported as applicable in this case. The verification
       of employment showed that the hourly wage borrower had the potential for a 4 to 5
       percent raise in approximately 9 months after closing. The raise, if calculated at the
       higher rate, would result in a 45.18 percent debt-to-income ratio, which was still higher
       than HUD’s 43 percent benchmark. Thus, the projected pay increase was not supported
       as a valid compensating factor.

We reviewed the loan file for other allowed compensating factors but did not identify any.

HUD Requirements

Mortgagee Letter 2005-16 increased the front ratio to 31 percent and the back ratio to 43 percent
for manually underwritten mortgages by direct endorsement underwriters. The letter further
provided that if either or both ratios are exceeded, the lender must describe the compensating
factors used to justify mortgage approval. HUD Handbook 4155.1, REV-5, paragraph 2-13,
provides compensating factors that may be used to justify approval of mortgage loans with ratios
above the benchmark guidelines. A compensating factor used to justify mortgage approval must
be supported by documentation.

Gift Funds Not Properly Assessed

Prospect’s file contained no documentation showing that it verified the receipt of the $3,024 in
gift funds. Thus, Prospect allowed the loan to close without confirming that the closing agent
received the nonprofit gift used to pay the borrower’s required investment in the property. The
HUD -1 settlement statement showed that the gift was paid. The missing document was required
to provide assurance that the gift was paid by the nonprofit organization and not by some other

                                               119
interested party to the loan transaction. We obtained the documents needed to confirm receipt of
the gift from the settlement agent.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds are not
deposited into the borrower’s account before closing, the lender must obtain verification that the
closing agent received funds from the donor for the amount of the gift.




                                               120
FHA case number:                      461-4115484
Loan purpose:                         Purchase
Underwriter type:                     Manually underwritten
Closing date:                         April 17, 2008
Loan amount:                          $82,845
Debt-to-income ratio:                 52.53 percent
Status:                               Current
Default reason:                       Curtailment of income

Questionable or Undocumented Compensating Factors

Prospect approved the high 49.32 percent debt-to-income ratio loan based on two invalid
compensating factors.

       All derogatory credit old – The resolution of past credit problems was not a valid
       compensating factor to justify approving a debt-to-income ratio that exceeded HUD
       guidelines. Separate and apart from compensating factors, borrowers are expected to
       have good credit to be approved for a HUD-insured loan. As discussed below, Prospect
       approved the loan, although the borrower had three unpaid collection accounts.

       Job stability – Job stability was not a valid compensating factor to justify the approval of
       a debt-to-income ratio that exceeded HUD guidelines. Without regard to compensating
       factors, borrowers are expected to have job stability to qualify for a HUD-insured loan.

We reviewed the loan file for other allowed compensating factors but did not identify any.

HUD Requirements

Mortgagee Letter 2005-16 increased the front ratio to 31 percent and the back ratio to 43 percent
for manually underwritten mortgages by direct endorsement underwriters. The letter further
provided that if either or both ratios are exceeded, the lender must describe the compensating
factors used to justify mortgage approval. HUD Handbook 4155.1, REV-5, paragraph 2-13,
provides compensating factors that may be used to justify approval of mortgage loans with ratios
above the benchmark guidelines. A compensating factor used to justify mortgage approval must
be supported by documentation.

Credit Not Properly Assessed

Prospect approved the loan, although the credit report showed that the borrower owed a total of
more than $1,800 on three collection accounts. One collection account, with a $229 balance,
was inappropriately paid from gift funds at closing and is discussed further below. The borrower
did not dispute responsibility for the two other collection accounts, but the loan file contained no
evidence to show that the borrower had arranged to pay them. We recognize that HUD does not
require collections accounts to be paid to approve a loan, yet Prospect did not document the
required analysis as to whether the late payments were based on a disregard for financial
obligations, an inability to manage debt, or factors beyond the control of the borrower.


                                                121
Prospect’s quality control review showed that the borrower was not able to maintain a
satisfactory credit history or establish a savings pattern at the lower rent amount.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions. If the credit history, despite adequate income to support obligations,
reflects continuous slow payments, judgments, and delinquent accounts, strong compensating
factors will be necessary to approve the loan. When delinquent accounts are revealed, the lender
must document its analysis as to whether the late payments were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.

Income Not Properly Assessed

Prospect overstated the borrower’s monthly income by $164 because the amount it allowed for
child support income exceeded the amount supported by documentation contained in the file.
Adjustment for the overstated income increased the borrower’s debt-to-income ratio from the
49.32 percent rate Prospect calculated to 52.53 percent.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-7(F), provides that child support income may be
considered as effective if such payments are likely to be consistently received for the first 3 years
of the mortgage. The borrower must provide a copy of the final divorce decree, legal separation
agreement, or voluntary payment agreement, as well as evidence that payments have been
received during the last 12 months.

Inadequate Assessment of Cash Assets

Prospect allowed the loan to close without properly verifying the source of borrower funds and
without requiring the borrower to make the required minimum downpayment.

       Inadequate verification of a large cash deposit – Prospect did not verify the source and
       use of a $4,887 deposit to the borrower’s savings account. The deposit was made in
       January 2008. The deposit was not consistent with the borrower’s savings pattern for an
       account that had a balance of only $446 in December 2007. The credit report was
       obtained in March 2008, less than 2 months from the date of the large deposit. The
       relationship between the large deposit and the credit report was significant because the
       credit report showed that the borrower paid off three debts between the date of the
       deposit and the credit report date. The report did not show the payoff amounts.
       However, the close proximity between the large deposit and the payoffs should have
       prompted Prospect to verify that the deposit was from a legitimate source and that the
       borrower used her own cash assets to pay the debts.

       Minimum downpayment not made – Prospect allowed the loan to close with the borrower
       paying $645 less than the minimum downpayment. As a result, Prospect over-insured the

                                                122
       loan by that amount. We noted that Prospect miscalculated the minimum downpayment
       to be $3,095 because it overstated closing costs used to calculate the amount, yet it only
       required the borrower to pay $2,505, or $590 less than the downpayment amount that it
       calculated. We calculated the minimum downpayment to be $2,921, of which the
       borrower paid only $2,276, or $645 less than the required amount. We offset the
       borrower’s downpayment by $229 because, based on our assessment, the closing
       statement indicated that amount was deducted from the nonprofit gift to pay off a debt.
       HUD does not allow the use of nonprofit gift funds to pay off debts.

          Required downpayment                                                 $2,921

          Less: funds provided by or for borrower
                gift amount (the only borrower funds paid)         $2,505
                 less: amount used to pay off debt                   (229)      2,276

          Shortfall in borrower downpayment                                      $645

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(B), provides that if there is a large increase in
an account or the account was opened recently, the lender must obtain a credible explanation of
the source of those funds. Paragraph 1-7, provides that the borrower must make a cash
investment that is at least equal to the difference between the sales price and the resulting
maximum mortgage amount but that the cash investment must equal at least 3 percent of the
contract sales price. Paragraph 2-10(C) provides that FHA does not allow nonprofit entities to
provide gifts to home buyers for the purpose of paying off installment loans, credit cards,
collections, judgments, and similar debts.

Gift Funds Not Properly Assessed

Prospect’s file did not contain documentation to show that it verified the receipt of the $2,505 in
gift funds. Thus, Prospect allowed the loan to close without confirming that the closing agent
received the nonprofit gift used to pay the borrower’s required investment in the property. The
HUD -1 settlement statement showed that the gift was paid. The missing document was required
to provide assurance that the gift was paid by the nonprofit organization and not by some other
interested party to the loan transaction.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds are not
deposited into the borrower’s account before closing, the lender must obtain verification that the
closing agent received funds from the donor for the amount of the gift.




                                                    123
FHA case number:                      381-8673508
Loan purpose:                         Purchase
Underwriter type:                     Manually underwritten
Closing date:                         September 29, 2008
Loan amount:                          $208,354
Debt-to-income ratio:                 64.93 percent
Status:                               Current
Default reason:                       Curtailment of income

Questionable or Undocumented Compensating Factors

Prospect approved the high 57.16 percent debt-to-income ratio loan based on invalid
compensating factors. Specifically, Prospect cited the following invalid compensating factors:

       Additional income from the borrower’s spouse – This was not a valid compensating
       factor. The borrower’s spouse was not a party to the loan, and her income was not
       relevant to the transaction, nor was there anything requiring her to obligate assets to
       maintain the mortgage.

       The borrower’s current year-to-date income – The use of the borrower’s income as a
       compensating factor was questionable because, as discussed below, Prospect overstated
       the borrower’s overtime pay, which increased the borrower’s already high 57.16 percent
       debt-to-income ratio to 64.93 percent. Further, the year-to-date income included
       overtime, which was not verified as likely to continue.

       The borrower’s good credit – The claimed compensating factor was not consistent with
       the credit problems discussed below.

HUD Requirements

Mortgagee Letter 2005-16 increased the front ratio to 31 percent and the back ratio to 43 percent
for manually underwritten mortgages by direct endorsement underwriters. The letter further
provided that if either or both ratios are exceeded, the lender must describe the compensating
factors used to justify mortgage approval. HUD Handbook 4155.1, REV-5, paragraph 2-13,
provides compensating factors that may be used to justify approval of mortgage loans with ratios
above the benchmark guidelines. A compensating factor used to justify mortgage approval must
be supported by documentation.

Credit Not Properly Assessed

Prospect approved the loan without determining the conditions behind a previous foreclosure and
despite the borrower’s history of credit problems. The credit report showed that several of the
credit problems were recent, with more than $11,300 in collection accounts that had not been
paid. This issue was significant, considering that items number one, two, and three of the
underwriting findings showed that the loan was referred for manual underwriting because the
risk and expense ratio exceeded the thresholds for automated approval. In addition to the income
issues discussed below, we identified the following credit problems:

                                               124
       The credit report showed that the borrower purchased a home in November 2002 using a
       conventional loan that was later foreclosed upon. The loan was paid off in May 2008,
       about 4 months before Prospect approved the borrower for this loan. The credit report
       and the loan file did not show when the foreclosure occurred, and there was no
       documentation showing that Prospect followed up to determine whether the foreclosure
       would impact its decision to approve the loan. This issue was significant because FHA
       does not allow the approval of borrowers who had a foreclosure on their principal
       residence or other real property within the previous 3 years unless there were extenuating
       circumstances that were beyond the control of the borrower and the borrower has
       reestablished good credit since the foreclosure. The borrower had unresolved collection
       accounts that dated back to at least 9 months after he purchased the previous property.
       Thus, the borrower’s qualification was questionable even if the foreclosure resulted from
       extenuating circumstances.

       The credit report showed that when Prospect approved the loan, the borrower owed more
       than $11,300 for accounts that were in collection ($10,364) or charged off ($978). The
       borrower was responsible for paying the charge-off amounts but had not done so. The
       total unpaid obligations included more than $10,072 for accounts that were more than 2
       years old and more than $1,270 for accounts that were less than 2 years old. We
       recognize that HUD does not require collections accounts to be paid to approve a loan,
       yet Prospect should have documented compensating factors to justify why it approved the
       loan. Also, Prospect did not document the required analysis to determine whether the
       collection accounts were based on a disregard for financial obligations, an inability to
       manage debt, or factors beyond the control of the borrower.

       For instance, the collections included $8,422 for an automobile loan that the borrower
       made in 2003 but failed to pay. The explanation shown in the loan file indicated that the
       borrower dropped the new vehicle off at the dealer and walked away from his loan
       obligation because the vehicle had a number of mechanical problems. The file contained
       no indication that the borrower tried to resolve the matter in a way that recognized his
       responsibility for the debt and to obtain a proper remedy to the problem. This attempt
       would have included but was not limited to pursuing a remedy through the State’s lemon
       law.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions. If the credit history, despite adequate income to support obligations,
reflects continuous slow payments, judgments, and delinquent accounts, strong compensating
factors will be necessary to approve the loan. When delinquent accounts are revealed, the lender
must document its analysis as to whether the late payments were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.
HUD Handbook 4155.1, REV-5, paragraph 2-3(D), provides that a borrower whose previous
principal residence or other real property was foreclosed upon or who has given a deed in lieu of
foreclosure within the previous 3 years is generally not eligible for a new FHA-insured
mortgage. However, if the foreclosure was the result of documented extenuating circumstances

                                               125
that were beyond the control of the borrower and the borrower has reestablished good credit
since the foreclosure, the lender may grant an exception to the 3-year requirement.

Income Not Properly Assessed

Prospect overstated the borrower’s overtime pay, which caused an understatement of the
borrower’s already high 57.16 percent debt-to-income ratio. In addition, Prospect did not verify
that the overtime pay was likely to continue.

       Overtime pay was overstated – Prospect overstated the borrower’s overtime pay by more
       than $435 per month. The overstatement occurred because Prospect calculated overtime
       based on a 16-month average versus the required 24-month average, although the
       information needed for the 24-month calculation was in the loan file. Based on the
       correct overtime amount, the borrower’s debt-to-income ratio increased from the 57.16
       percent rate Prospect calculated to 64.93 percent. The debt ratio exceeded HUD’s 43
       percent benchmark. As discussed above, Prospect did not document legitimate
       compensating factors to justify its approval of the high debt ratio it calculated, let alone
       the higher 64.93 percent ratio based on the corrected overtime calculation.

       Overtime pay was not verified as likely to continue – Prospect did not verify that the
       borrower’s overtime pay was likely to continue for the first 3 years of the loan. Before
       the loan closing, the borrower had worked for the same employer for at least 28 months
       and had consistently received substantial overtime pay. However, the borrower’s
       verification of employment showed that the likelihood of continued employment was
       good but the likelihood of continued overtime pay was “unknown.” The loan file
       contained no evidence that Prospect followed up with the employer to obtain an
       explanation for the response concerning overtime pay. Neighborhood Watch showed that
       the borrower defaulted on the loan due to a curtailment of income. In the absence of
       follow-up on the overtime issue, the default reason appeared consistent with the
       employer’s response that it was unknown whether the overtime pay would continue.
       Given the borrower’s high debt ratio, the continued availability of substantial overtime
       pay was critical to the borrower’s ability to make the mortgage payments and Prospect’s
       decision to approve the loan.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-7(A), states that overtime income may be used to
qualify if the borrower has received such income for the past 2 years and it is likely to continue.
The lender must develop an average of overtime income for the past 2 years, and the
employment verification must not state that such income is unlikely to continue. Periods of less
than 2 years may be acceptable, provided the lender justifies and documents in writing the reason
for using the income for qualifying purposes. Paragraph 2-7 provides that the income of each
borrower to be obligated for the mortgage debt must be analyzed to determine whether it can
reasonably be expected to continue through at least the first 3 years of the mortgage loan.




                                               126
Gift Funds Not Properly Assessed

Prospect’s file contained no documentation showing that it verified receipt of a $6,300 gift paid
to the closing agent by a nonprofit donor. Thus, Prospect allowed the loan to close without
confirming that the closing agent received the gift used to pay the borrower’s required
investment in the property. Proof of the payment was required to provide assurance that the gift
was paid by the nonprofit organization and not by some other interested party to the loan
transaction. We obtained the documents needed to confirm receipt of the gift from the settlement
agent.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds are not
deposited into the borrower’s account before closing, the lender must obtain verification that the
closing agent received funds from the donor for the amount of the gift.

Other - Understated Liabilities (Housing Cost)

Prospect understated the borrower’s monthly housing cost by $68. We used the amounts
reflected on the HUD -1 settlement statement for housing costs. The understatement includes
$51 for taxes and $17 for insurance. Adjustment for the understatement further contributed to
the borrower’s already high 64.93 percent debt-to-income ratio.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-11(A), provides that lenders must include the
monthly housing expense and all additional recurring charges extending 10 months or more.




                                                 127
FHA case number:                     381-8674809
Loan purpose:                        Purchase
Underwriter type:                    Manually underwritten
Closing date:                        July 25, 2008
Loan amount:                         $149,408
Debt-to-income ratio:                59.52 percent
Status:                              Current
Default reason:                      Illness of borrower

Questionable or Undocumented Compensating Factors

Prospect approved the high 49.72 percent debt-to-income ratio loan based on the following
invalid compensating factors:

       Older derogatory credit – Prospect stated that all of the borrower’s derogatory credit was
       old. However, as discussed below, that claim was not valid as demonstrated by the credit
       report, which showed that the borrower owed more than $7,700 for 13 collection
       accounts.

       Automobile almost paid off – Prospect correctly noted that the borrower’s automobile
       was almost paid off. However, this was not a valid compensating factor, because
       Prospect did not consider the more significant issues associated with the borrower’s debts
       including more than $7,700 for 13 collections accounts. The file contained no evidence
       that the borrower had arranged to pay the accounts.

       Child support payments would end soon – Prospect stated that the borrower’s child
       support payments of more than $535 per month would end soon. However, the file
       contained no documentation to support when the payments would end.

HUD Requirements

Mortgagee Letter 2005-16 increased the front ratio to 31 percent and the back ratio to 43 percent
for manually underwritten mortgages by direct endorsement underwriters. The letter further
provided that if either or both ratios are exceeded, the lender must describe the compensating
factors used to justify mortgage approval. HUD Handbook 4155.1, REV-5, paragraph 2-13,
provides compensating factors that may be used to justify approval of mortgage loans with ratios
above the benchmark guidelines. A compensating factor used to justify mortgage approval must
be supported by documentation.

Credit Not Properly Assessed

Prospect approved the loan, although the credit report showed that the borrower owed more than
$7,700 for collection accounts and had not arranged to pay them. The unpaid obligations
included $7,175 for eight accounts that were less than 2 years old and $541 for five accounts that
were more than 2 years old. The file contained a letter from the borrower, which stated that the
collection accounts occurred because he had health problems that resulted in medical bills that
made it very difficult to pay other bills. We recognize that HUD does not require collections

                                               128
accounts to be paid to approve a loan, yet Prospect should have documented compensating
factors to justify why it approved the loan despite the collection accounts. Also, Prospect did not
document the required analysis to determine whether the collection accounts were based on a
disregard for financial obligations, an inability to manage debt, or factors beyond the control of
the borrower. Also, we recognize that health conditions, such as those explained by the
borrower, occur and that the condition itself may have been beyond the borrower’s control.
However, the responsibility to pay debts that resulted from such conditions was within the
borrower’s control, but Prospect did not assess or document its assessment as to why the
borrower did not pay the collection accounts.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-3, states that past credit performance serves as the
most useful guide in determining a borrower’s attitude toward credit obligations and predicting a
borrower’s future actions. If the credit history, despite adequate income to support obligations,
reflects continuous slow payments, judgments, and delinquent accounts, strong compensating
factors will be necessary to approve the loan. When delinquent accounts are revealed, the lender
must document its analysis as to whether the late payments were based on a disregard for
financial obligations, an inability to manage debt, or factors beyond the control of the borrower.

Debts Not Properly Assessed

Prospect understated the borrower’s monthly debts by $376 because it did not include payments
on an automobile loan that had less than 10 months of payments remaining and a balance of
$1,470. We included the payment because the borrower had a high debt-to-income ratio,
experienced increased housing cost (going from no housing cost to a monthly mortgage of more
than $1,200), and had collection accounts discussed above. Adjustment for the debt would have
increased the borrower’s already high 49.72 percent debt-to-income ratio to 59.52 percent.

Prospect disagreed with our position and stated that the borrower had sufficient cash on deposit
to pay off the loan. We acknowledge that the bank statements showed a balance of more than
$2,300 as of June 30, 2008. However, the file showed that the account was a joint checking
account, which the borrower had with his daughter. The daughter was not a party to the loan.

HUD Requirements

HUD Handbook 4155.1, REV 5, paragraph 2-11(A), provides that in computing the debt-to-
income ratios, the lender must include the monthly housing expense and all additional recurring
charges extending 10 months or more. Debts lasting less than 10 months must be counted if the
amount of the debt affects the borrower’s ability to make the mortgage payment during the
months immediately after loan closing.




                                               129
Gift Funds Not Properly Assessed

Prospect allowed the loan to close without confirming that the closing agent received the $7,750
nonprofit gift used to pay the borrower’s required investment in the property. The HUD -1
settlement statement showed that the gift was paid. The missing document was required to
provide assurance that the gift was paid by the nonprofit organization and not by some other
interested party to the loan transaction. We obtained the documents needed to confirm receipt of
the gift from the settlement agent.

HUD Requirements

HUD Handbook 4155.1, REV-5, paragraph 2-10(C), provides that if the gift funds are not
deposited into the borrower’s account before closing, the lender must obtain verification that the
closing agent received funds from the donor for the amount of the gift.




                                               130
Appendix F
    SCHEDULE OF ALLOWED COMPENSATING FACTORS

HUD Handbook 4155.1, REV-5, paragraph 2-13, provides the following compensating factors
that may be used to justify the approval of mortgage loans with ratios that exceed HUD’s
benchmark guidelines. Any compensating factor used to justify mortgage approval must be
supported by documentation.

   A. The borrower has successfully demonstrated the ability to pay housing expenses equal to
      or greater than the proposed monthly housing expense for the new mortgage over the past
      12-24 months.

   B. The borrower makes a large downpayment (ten percent or more) toward the purchase of
      the property.

   C. The borrower has demonstrated an ability to accumulate savings and a conservative
      attitude toward the use of credit.

   D. Previous credit history shows that the borrower has the ability to devote a greater portion
      of income to housing expenses.

   E. The borrower receives documented compensation or income not reflected in effective
      income, but directly affecting the ability to pay the mortgage, including food stamps and
      similar public benefits.

   F. There is only a minimal increase in the borrower's housing expense.

   G. The borrower has substantial documented cash reserves (at least three months’ worth)
      after closing. In determining if an asset can be included as cash reserves or cash to close,
      the lender must judge whether or not the asset is liquid or readily convertible to cash and
      can be done so absent retirement or job termination.

   H. The borrower has substantial non-taxable income.

   I. The borrower has a potential for increased earnings, as indicated by job training or
      education in the borrower's profession.

   J.    The home is being purchased as a result of relocation of the primary wage earner, and
        the secondary wage-earner has an established history of employment, is expected to
        return to work, and reasonable prospects exist for securing employment in a similar
        occupation in the new area. The underwriter must document the availability of such
        possible employment.




                                               131
Appendix G

   LOANS APPROVED BY UNDERWRITERS WITH HIGH
 DEFAULT RATES WHICH WERE NOT REVIEWED DURING
                   THE AUDIT
              Overall
              default       FHA        FHA       Endorsement           Mortgage
Underwriter     rate    case number   status *       date      State   amount
    A         49.39%    105-3283436      C       12/26/2007     GA      $   49,608
    A         49.39%    105-3314028      A        1/03/2008    GA          136,619
    A         49.39%    105-3292829      C        1/15/2008    GA           73,080
    A         49.39%    105-3283632      C        1/16/2008    GA          173,280
    A         49.39%    105-3237527      A        1/16/2008    GA          159,268
    A         49.39%    105-3300659      A        1/17/2008    GA          182,446
    A         49.39%    105-3328736      C        1/17/2008    GA          148,824
    A         49.39%    105-3312917      A        1/17/2008    GA          165,238
    A         49.39%    105-3295979      A        1/22/2008    GA           68,918
    A         49.39%    105-3336811      C        1/22/2008    GA          173,057
    A         49.39%    381-8276371      A        1/25/2008    NC          155,500
    A         49.39%    105-3299290      A        1/28/2008    GA          148,182
    A         49.39%    105-3321557      A        1/28/2008    GA          256,683
    A         49.39%    105-3294614      A        1/29/2008    GA           82,671
    A         49.39%    105-3324655      A        1/29/2008    GA          123,068
    A         49.39%    105-3314585      A        1/30/2008    GA          152,014
    A         49.39%    105-3341624      A        1/30/2008    GA          173,280
    A         49.39%    105-3224683      A        2/05/2008    GA          163,706
    A         49.39%    381-8308576      A        2/11/2008    NC          161,800
    A         49.39%    105-3173727      A        2/14/2008    GA          137,531
    A         49.39%    105-3353849      A        2/14/2008    GA          123,167
    A         49.39%    381-8287736      A        2/18/2008    NC          183,500
    A         49.39%    105-3397929      C        3/03/2008    GA          144,485
    A         49.39%    105-3476032      A        3/11/2008    GA          178,589
    A         49.39%    105-3440114      A        3/11/2008    GA          124,033
    A         49.39%    105-3329760      A        3/14/2008    GA          167,982
    A         49.39%    105-3517014      A        3/20/2008    GA          105,383
    A         49.39%    105-3397891      A        3/21/2008    GA          165,191
    A         49.39%    105-3479916      A        3/24/2008    GA          123,931
    A         49.39%    105-3309527      A        3/25/2008    GA           82,832
    A         49.39%    105-3504509      A        3/31/2008    GA          126,499
    A         49.39%    105-3503736      A        4/03/2008    GA          153,681
    A         49.39%    105-3428221      A        4/03/2008    GA          128,981
    A         49.39%    381-8414385      A        4/03/2008    NC          107,648


                                        132
A   49.39%   381-8391891   A      4/03/2008   NC   108,300
A   49.39%   105-3513841   A      4/14/2008   GA   199,233
A   49.39%   093-6283696   A      4/15/2008   FL   173,733
A   49.39%   105-3568250   A      4/28/2008   GA   181,701
A   49.39%   105-3565761   C      4/29/2008   GA   150,709
A   49.39%   105-3548183   A      5/02/2008   GA   110,465
A   49.39%   105-3579145   A      5/02/2008   GA   157,328
A   49.39%   105-3491798   A      5/06/2008   GA   118,232
A   49.39%   105-3588413   A      5/08/2008   GA   110,846
A   49.39%   105-3554960   C      5/15/2008   GA   203,392
A   49.39%   381-8340095   A      5/23/2008   NC    94,254
A   49.39%   105-3585939   A      5/29/2008   GA    95,819
A   49.39%   105-3693574   A      6/05/2008   GA   111,497
A   49.39%   105-3618124   A      6/11/2008   GA   134,335
A   49.39%   105-3569420   A      6/12/2008   GA   194,986
A   49.39%   105-3750166   C      6/20/2008   GA   201,160
A   49.39%   461-4321111   A      6/21/2008   SC    84,333
A   49.39%   381-8356247   A      6/24/2008   NC   107,153
A   49.39%   011-5898642   A      6/26/2008   AL   151,205
A   49.39%   105-3746648   A      6/27/2008   GA    93,532
A   49.39%   105-3703058   T      6/27/2008   GA   108,300
A   49.39%   105-3646574   A      6/28/2008   GA    95,009
A   49.39%   105-3757243   A      7/01/2008   GA   211,779
A   49.39%   105-3728276   A      7/03/2008   GA    51,530
A   49.39%   105-3830308   A      7/14/2008   GA    97,541
A   49.39%   381-8532367   C      7/25/2008   NC   105,169
A   49.39%   105-3768529   A      8/05/2008   GA   173,108
A   49.39%   381-8439341   A      8/26/2008   NC   168,564
A   49.39%   381-8695736   A      9/09/2008   NC    89,455
A   49.39%   461-4265032   A     10/28/2008   SC   187,775
A   49.39%   381-8662586   A     10/31/2008   NC   101,500
A   49.39%   381-8682341   A     12/10/2008   NC   234,153
B   42.03%   105-3292184   A      1/28/2008   GA    66,871
B   42.03%   105-3345518   A      1/28/2008   GA   163,192
B   42.03%   105-3331691   A      1/29/2008   GA   181,037
B   42.03%   011-5740670   A      2/04/2008   AL   89, 274
B   42.03%   105-3352396   A      2/15/2008   GA   120,074
B   42.03%   105-3402471   A      2/19/2008   GA   113,223
B   42.03%   381-8330749   A      2/28/2008   NC   117,372
B   42.03%   105-3493782   A      3/25/2008   GA   112,683
B   42.03%   105-3320393   A      3/31/2008   GA   139,050
B   42.03%   105-3554120   C      4/15/2008   GA    75,638
B   42.03%   105-3560394   A      4/15/2008   GA   132,850


                           133
B   42.03%   105-3562740   A      4/17/2008   GA   258,825
B   42.03%   105-3449215   A      5/08/2008   GA   162,704
B   42.03%   381-8270260   A      5/12/2008   NC   147,831
B   42.03%   461-4292639   A      5/16/2008   SC   124,019
B   42.03%   381-8491160   A      5/27/2008   NC   150,727
B   42.03%   105-3628570   A      6/05/2008   GA   116,216
B   42.03%   011-5886224   A      6/13/2008   AL    85,310
B   42.03%   105-3659424   A      6/13/2008   GA   139,259
B   42.03%   105-3513812   A      6/18/2008   GA   114,755
B   42.03%   381-8485545   C      6/18/2008   NC    94,598
B   42.03%   105-3689629   A      6/24/2008   GA   118,241
B   42.03%   381-8569548   A      6/30/2008   NC    99,216
B   42.03%   381-8554067   A      7/07/2008   NC   126,514
B   42.03%   381-8311995   A      7/14/2008   NC   159,869
B   42.03%   381-8791481   A     10/21/2008   NC   160,131
B   42.03%   381-8822487   A     11/11/2008   NC   105,387
B   42.03%   381-9195528   A      4/15/2009   NC   105,440
C   31.34%   381-8228780   A     12/14/2007   NC   149,291
C   31.34%   105-3253819   A     12/19/2007   GA   143,645
C   31.34%   105-3376987   A      2/05/2008   GA   230,125
C   31.34%   381-8277558   A      2/19/2008   NC   227,200
C   31.34%   381-8317998   A      2/22/2008   NC   173,450
C   31.34%   105-3534914   A      3/31/2008   GA    88,002
C   31.34%   105-3579116   A      5/01/2008   GA   137,025
C   31.34%   105-3606648   C      5/09/2008   GA   145,847
C   31.34%   105-3604873   A      5/12/2008   GA   210,206
C   31.34%   461-4192609   C      5/27/2008   SC    81,357
C   31.34%   105-3743556   A      6/26/2008   GA   181,902
C   31.34%   105-3765437   A      6/28/2008   GA   160,730
C   31.34%   381-8576713   A      7/08/2008   NC   142,358
C   31.34%   381-8650390   A      8/18/2008   NC   153,784
C   31.34%   381-8645621   A     10/08/2008   NC    86,275
C   31.34%   381-8814987   A     11/10/2008   NC   212,403
D   54.17%   105-3212010   A      1/09/2008   GA   143,468
D   54.17%   105-3314005   A      1/22/2008   GA   138,902
D   54.17%   105-3336408   A      1/30/2008   GA   111,488
D   54.17%   105-3430181   A      2/29/2008   GA   107,704
D   54.17%   105-3392967   A      3/03/2008   GA   126,004
D   54.17%   381-8299518   A      3/11/2008   NC   123,068
D   54.17%   105-3447368   A      3/12/2008   GA   127,343
D   54.17%   105-3419090   A      3/31/2008   GA   156,449
D   54.17%   105-3552215   A      4/08/2008   GA   210,139
D   54.17%   105-3528412   A      4/14/2008   GA   164,044


                           134
D   54.17%   105-3528767   A      4/14/2008   GA   236,160
D   54.17%   381-8487570   A      5/23/2008   NC   282,753
D   54.17%   105-3725149   A      6/25/2008   GA   132,421
E    45%     011-5702059   A      1/16/2008   AL    93,633
E    45%     105-3350258   A      1/30/2008   GA   157,325
E    45%     105-3365745   A      2/05/2008   GA   158,680
E    45%     105-3418898   A      2/29/2008   GA   145,652
E    45%     105-3520287   A      3/25/2008   GA   152,605
E    45%     105-3495783   C      3/25/2008   GA   122,575
E    45%     105-3506227   A      3/31/2008   GA   109,518
E    45%     105-3420704   A      4/16/2008   GA   103,909
E    45%     105-3612433   A      5/13/2008   GA   111,447
F   9.20%    105-3470315   A      3/12/2008   GA   137,520
F   9.20%    105-3466837   A      4/04/2008   GA   123,931
F   9.20%    461-4422544   A      10/6/2008   SC   178,994
G   33.02%   105-3304104   C     12/28/2007   GA   163,192
G   33.02%   105-3289422   A      1/11/2008   GA   174,344
G   33.02%   105-3323462   A      1/28/2008   GA    96,780
G   33.02%   105-3374674   A      2/04/2008   GA   158,289
G   33.02%   105-3357364   A      2/04/2008   GA   103,687
G   33.02%   105-3331820   A      2/13/2008   GA   123,068
G   33.02%   105-3379478   A      2/25/2008   GA   167,272
G   33.02%   381-8330489   A      2/25/2008   NC   168,997
G   33.02%   381-8341583   A      2/28/2008   NC   201,400
G   33.02%   105-3416876   A      3/07/2008   GA   114,086
G   33.02%   105-3497183   A      3/21/2008   GA   140,070
G   33.02%   105-3407845   A      3/31/2008   GA    95,866
G   33.02%   105-3460749   A      3/31/2008   GA    86,317
G   33.02%   381-8415657   A      4/07/2008   NC   118,047
G   33.02%   381-8391311   A      4/07/2008   NC   181,685
G   33.02%   105-3541786   A      4/14/2008   GA   163,953
G   33.02%   105-3550729   A      4/16/2008   GA   151,940
G   33.02%   105-3562690   A      4/23/2008   GA   147,896
G   33.02%   105-3525118   A      4/28/2008   GA   115,188
G   33.02%   105-3460000   A      5/14/2008   GA   149,306
G   33.02%   105-3534972   A      5/15/2008   GA   199,760
G   33.02%   105-3680485   A      6/05/2008   GA   173,829
G   33.02%   381-8549356   A      6/24/2008   NC   115,090
G   33.02%   105-3733848   A      6/25/2008   GA   125,352
G   33.02%   105-3587401   A      6/30/2008   GA    88,761
G   33.02%   105-3666527   A      7/01/2008   GA   145,417
G   33.02%   105-3551538   A      8/01/2008   GA   165,181
H   39.13%   105-3298765   A      1/11/2008   GA   128,212


                           135
 H         39.13%    105-3308045   A      1/16/2008   GA       84,829
 H         39.13%    105-3302348   A      1/28/2008   GA      153,589
 H         39.13%    105-3305939   A      1/28/2008   GA      122,967
 H         39.13%    105-3287467   C      1/29/2008   GA      162,755
 H         39.13%    105-3373968   A      2/07/2008   GA      183,539
 H         39.13%    381-8300639   A      2/20/2008   NC      148,750
 H         39.13%    105-3438229   C      3/03/2008   GA      170,723
 H         39.13%    105-3475215   A      3/25/2008   GA      234,386
 H         39.13%    105-3450787   A      3/25/2008   GA      143,673
 H         39.13%    381-8351227   A      3/31/2008   NC      125,352
 H         39.13%    381-8410360   A      4/02/2008   NC      125,037
 H         39.13%    105-3528671   A      4/08/2008   GA       97,962
 H         39.13%    381-8486539   A      5/22/2008   NC      115,288
 H         39.13%    461-4376876   A      8/19/2008   SC      124,019
 H         39.13%    105-3770455   A      8/22/2008   GA       81,707
 H         39.13%    381-8531355   A     10/06/2008   NC       77,388
  I        11.94%    381-8278372   A      1/22/2008   NC      197,500
  I        11.94%    105-3373026   A      2/11/2008   GA      256,683
  I        11.94%    105-3491985   A      3/19/2008   GA       90,814
  I        11.94%    105-3596960   A      5/27/2008   GA      315,507
  I        11.94%    381-8679359   A      8/29/2008   NC      196,348


                                                           $26,138,210

*FHA status codes:
   A = Active
   C = Claim
   T = Terminated




                                   136
